<html>
<title> - PUBLIC CONFIDENCE, DOWN THE DRAIN: THE FEDERAL ROLE IN ENSURING SAFE DRINKING WATER IN THE DISTRICT OF COLUMBIA</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
 PUBLIC CONFIDENCE, DOWN THE DRAIN: THE FEDERAL ROLE IN ENSURING SAFE 
               DRINKING WATER IN THE DISTRICT OF COLUMBIA
=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 5, 2004

                               __________

                           Serial No. 108-161

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform










                 U.S. GOVERNMENT PRINTING OFFICE

94-596                 WASHINGTON : 2004
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866)512-1800: 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001






                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
------ ------                                    ------
------ ------                        BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel




















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 5, 2004....................................     1
Statement of:
    Grumbles, Benjamin, Acting Assistant Administrator, Office of 
      Water, Environmental Protection Agency; Donald S. Welsh, 
      Regional Administrator, Environmental Protection Agency 
      Region III; Thomas P. Jacobus, P.E., General Manager, 
      Washington Aqueduct, Environmental Protection Agency; Glenn 
      S. Gerstell, chairman, District of Columbia Water and Sewer 
      Authority, accompanied by Jerry N. Johnson, general 
      manager, and Michael S. Marcotte, P.E., DEE, chief 
      engineer/deputy manager....................................    17
    Olson, Erik, senior attorney, Natural Resources Defense 
      Council; Professor Ellen Silbergeld, John Hopkins Bloomberg 
      School of Public Health; and Professor Marc Edwards, 
      Virginia Polytechnic Institute and State University........   172
Letters, statements, etc., submitted for the record by:
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia:
        Followup questions and responses.........................   102
        Prepared statement of....................................     5
    Edwards, Professor Marc, Virginia Polytechnic Institute and 
      State University, prepared statement of....................   212
    Gerstell, Glenn S., chairman, District of Columbia Water and 
      Sewer Authority:
        Chart on monthly plant effluent and finished reservoir 
          lead monitoring........................................    67
        Prepared statement of....................................    70
    Grumbles, Benjamin, Acting Assistant Administrator, Office of 
      Water, Environmental Protection Agency, prepared statement 
      of.........................................................    20
    Jacobus, Thomas P., P.E., General Manager, Washington 
      Aqueduct, Environmental Protection Agency, prepared 
      statement of...............................................    59
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia:
        Prepared statement of....................................    12
        Public service announcements.............................    91
    Olson, Erik, senior attorney, Natural Resources Defense 
      Council, prepared statement of.............................   174
    Silbergeld, Professor Ellen, John Hopkins Bloomberg School of 
      Public Health, prepared statement of.......................   197



















 PUBLIC CONFIDENCE, DOWN THE DRAIN: THE FEDERAL ROLE IN ENSURING SAFE 
               DRINKING WATER IN THE DISTRICT OF COLUMBIA

                              ----------                              


                         FRIDAY, MARCH 5, 2004

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Davis of Virginia; Tierney, Van 
Hollen, and Norton.
    Also present: Mr. Moran of Virginia.
    Staff present: Melissa Wojciak, staff director; David 
Marin, deputy staff director/director of communications; Keith 
Ausbrook, chief counsel; John Hunter, counsel; Robert Borden, 
senior counsel/parliamentarian; Drew Crockett, deputy director 
of communications; Teresa Austin, chief clerk; Brien Beattie, 
deputy clerk; Shalley Kim, professional staff member; Corinne 
Zaccagnini, chief information officer; Krista Boyd and 
Alexandra Teitz, minority counsels; Karen Lightfoot, minority 
communications director/senior policy advisor; Anna Laitin, 
minority communications and policy assistant; Earley Green, 
minority chief clerk; Jean Gosa, minority assistant clerk; and 
Cecelia Morton, minority office manager.
    Chairman Tom Davis. Good morning. The Committee on 
Government Reform will come to order. And welcome to today's 
hearing entitled, ``Public Confidence, Down the Drain: The 
Federal Role in Ensuring Safe Drinking Water in the District of 
Columbia.''
    As chairman of the House Committee on Government Reform 
with jurisdiction over the District of Columbia, I was deeply 
troubled by reports that thousands of District homes tested 
above the Federal action limit for lead contamination. In 
testing done last summer, water in two-thirds of the 6,118 
homes tested exceeded the lead limit established by the 
Environmental Protection Agency and many had lead levels that 
far exceed that limit. As you know lead exposure can have 
serious, even deadly, health ramifications, especially for 
young children and pregnant women.
    I am also concerned that the public has not been properly 
informed of the situation. When the District of Columbia Water 
and Sewer Authority [WASA], first learned of high lead test 
results, homeowners who were part of the samplings were 
notified of the initial findings, but the vast majority of 
homeowners who were not sampled were not notified of potential 
risk. Clearly residents have not been receiving timely and 
complete information. This is unacceptable.
    Residents are also getting mixed messages from inconsistent 
statements released by WASA. At the end of January, WASA 
recommended that residents whose water is contaminated flush 
cold water lines for 30 seconds to 1 minute before using water 
for drinking or cooking. By February 19th, District residents 
were told to flush their water for 10 minutes. Then on February 
25th the D.C. Department of Health issued an advisory warning 
residents that all pregnant women and children under 6 years 
old should immediately stop drinking District water. People 
need to know if their water is safe, and if not, what is being 
done to make it safe and exactly what they should do in the 
interim.
    The Safe Drinking Water Act established a mechanism to 
monitor and regulate the levels of contaminants in public water 
systems so that drinking water is safe for the consuming 
public. Under the act, EPA is charged with setting levels of 
specific contaminants and implementing a monitoring and 
remediation program.
    Each public water system is also required to implement 
optimal corrosion control treatment measures, a requirement 
that is separate from the requirements relating to the level of 
contaminants. If a water system exceeds specific contaminant 
levels, the action level, it must engage in additional 
corrective measures. States generally have the responsibility 
for ensuring that water systems don't exceed the action levels 
and that water systems take corrective actions when 
appropriate. But in the District of Columbia, EPA has this 
responsibility.
    Congress also gave EPA emergency authority to take action 
if a contaminant in drinking water may present an imminent and 
substantial endangerment to the health of persons. Under this 
authority EPA may order a water system to take such actions as 
may be necessary to protect the health of persons using the 
water system, including, as the statute expressly states, 
ordering that alternative water supplies be provided. EPA 
should not hesitate to exercise its authority if the facts 
warrant action.
    Lead is a primary contaminant in drinking water. It can 
come from source water, water in the distribution system lines, 
and water in a customer's plumbing systems. In 1991 EPA set the 
action level for lead at 15 parts per billion. Lead remediation 
measures include additional and more frequent testing, public 
education, and even line replacement. But these measures may 
not reduce lead levels in the District of Columbia drinking 
water in the near future.
    And there are many questions that remain to be answered: 
What took so long to inform District residents of the potential 
health risks? How can residents best protect themselves? What 
relief will residents expect to receive? Did the Federal 
Government exercise proper oversight over the District's 
drinking water? Is the current safe water drinking program 
adequate to ensure that the public actually has safe drinking 
water or does it need to be reformed?
    I have to wonder if EPA was effective in its oversight of 
the District drinking water quality. One concern is that EPA 
allowed WASA to use ``flushed water'' and not ``first draw'' 
water for testing in schools. First draw samples are taken as 
soon as the water is turned on. Flushed samples are taken after 
running for 10 minutes. Lead levels will usually be quite high 
in water that has sat overnight in a lead line from a street 
main to a house.
    Out of 752 samples, taken only 8 samples tested above the 
15 parts per billion threshold. But I can't help wonder if more 
schools are at risk because testing protocols that EPA requires 
for private homes were not followed by WASA while they tested 
the schools.
    I am concerned about the potential magnitude of this public 
health crisis. It is worrisome that there is no comprehensive 
list of properties that exceed limits. The fact that we can't 
pinpoint the affected areas is also worrisome. This has an 
effect on whether people buy homes in the District. In 
addition, many people commute to work and visit the District.
    We're on the verge of the tourist season in the Nation's 
Capital. What message are we sending to potential visitors from 
around the world if the water is unsafe to drink, and what 
impact will it have on our tourism industry here? What are 
Members of Congress supposed to tell the American people? Come 
to Washington but don't drink the water?
    The U.S. Government is the biggest user of D.C. water. Even 
the White House and Pentagon tested their water. The problem of 
lead contamination is not only a concern for District 
residents. Just this week, Arlington County reported that it 
had found high levels of lead. Were these levels detected as a 
result of special testing? If so, why did these levels not show 
up in the routine testing required by EPA under the Safe 
Drinking Water Act?
    Yesterday it was announced that Fairfax County would sample 
for lead exposure in 345 schools. I am concerned about the 
regional impact of the recent spike level of lead in water. We 
have to find out how widespread this problem is and we need to 
fix it.
    Arlington, which gets its water from the Dalecarlia Water 
Treatment Plant in the District, first stated that the water 
was safe because the county didn't have lead pipes. Now 
officials are saying that the problem may be that the chemicals 
used to kill bacteria in the water may have a corrosive effect 
on pipes. We need to find out whether the root of the problem 
is the lead service lines or some other condition. If it's not 
the lead service lines alone, we have to ask whether replacing 
lead service lines is enough.
    What we know for certain is that somewhere between the 
source and the spigot, something's going wrong. Arlington's 
results suggest that corrosion control may be more important 
than infrastructure. What we're seeing is that little changes 
in chemistry have a big impact. That's where the Federal role 
really comes under the spotlight. WASA doesn't make the water, 
per se, they just deliver it. Water chemistry is the 
responsibility of the EPA and the Army Corps, not WASA. And if 
it's water chemistry and not just lead pipes that are to blame, 
then we have to be concerned for all WASA customers, in D.C., 
Arlington, Falls Church and Fairfax County. Indeed as one of 
our witnesses will testify today, the spike in lead levels 
we've seen in our region is probably a signal that similar 
problems may exist in many other water systems nationwide. EPA 
and the Army Corps of Engineers need to determine whether new 
chemicals used to treat water for bacteria have a corrosive 
effect on service lines.
    I hope our witnesses will share with us their study 
findings. WASA, EPA, and the U.S. Corps of Engineers should 
promptly resolve this issue and introduce a lead buffering 
agent to reduce the reactivity of drinking water with lead in 
pipes, joints, and plumbing. We need to make sure that the 
treatment operations are working to protect the consumer and 
that we're not trading one bad thing for another. After all, 
that's why EPA and the Corps moved to chloramines in the first 
place, to avoid potentially harmful chemicals.
    The purpose of this oversight hearing is to provide a forum 
for the committee to assess the coordinated actions of EPA 
which is responsible for public water supervision programs for 
the District, the Washington aqueduct of the Washington Corps 
of Engineers which treats the water supply by the District, and 
WASA which purchases the water from the aqueduct and 
distributes it to District residents. We also intend to explore 
whether the current safe drinking water program is adequate to 
assure safe drinking water for the consuming public or whether 
it needs to be changed.
    We have a distinguished panel of witnesses before us. I 
look forward to hearing testimony from our witnesses. I thank 
them for being with us. I hope they will shed some light on 
this issue so we can move forward to ensure that all residents 
in the capital region have safe drinking water. We will hear 
from the Environmental Protection Agency, the Washington 
Aqueduct of the U.S. Army Corps of Engineers, the District of 
Columbia Water and Sewer Authority, the Natural Resources 
Defense Council, and professors from Johns Hopkins Bloomberg 
School of Public Health, and Virginia Polytechnic Institute and 
State University.
    I might add, we are holding this hearing today at the 
request of the city of Washington which has called us and 
expressed their concern about the Federal role as well.
    [The prepared statement of Chairman Tom Davis follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Chairman Tom Davis. I will now recognize Ms. Norton for any 
opening statement she may wish to make. Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman, for holding 
today's hearing which became clear to me that we needed the 
moment I was briefed by the EPA on this, the condition of our 
water. This hearing on lead and the region's water is the most 
important hearing we've had this entire session. The stakes for 
1 million residents in the District of Columbia and Virginia 
could not be higher. However, the direct implications for 
jurisdictions throughout the country are already apparent even 
in what we have learned thus far about the D.C. Water and Sewer 
Authority crisis, about the Environmental Protection Agency 
regulations and monitoring, and about the Corps of Engineers' 
practices in purifying the water here.
    Although Washington is the political capital in the midst 
of a political season, people here wake up looking not for the 
latest poll or primary results first, but for the day's tally 
on lead in the water. What is most troubling about what has 
occurred is that, one, mistakes in judgment and procedure were 
apparently made at every important juncture, as those involved 
now concede; and, two, any one of the three agencies could have 
caught the problem much earlier. All deferred to one another, 
creating an appearance of collusion or suppression of 
information.
    The response that there was no intention may well be true, 
but it may not be sufficient to restore the confidence of the 
public and the Congress in the D.C. Water and Sewer Authority, 
EPA, and the Corps of Engineers' aqueduct operation. Therefore, 
this hearing must be primarily concerned with the measures all 
three must take to restore the needed confidence so that 
residents, commuters, and visitors will not need to ask the 
question they typically ask when they visit a developing 
country; namely, is it safe to drink the water here?
    Beginning in 1996, WASA recreated itself from top to 
bottom. I have witnessed a vast improvement in the agency and 
have been pleased with what can only be called its complete 
transformation, even resurrection. I truly regret that WASA has 
allowed its new reputation to be severely tarnished. Far more 
important to the public than WASA's structural changes, and 
even its new good investment bond rating, is whether the end 
product, our water, is safe.
    However, I am even more concerned about the actions of the 
responsible Federal agencies. The EPA plays a more important 
role in safeguarding drinking water here than in any 
jurisdiction except Wyoming, because EPA is in effect both the 
State and the Federal environmental monitor. Thus, when EPA 
fails here, it fails twice. There is no further watchdog, as 
when a State fails in its environmental policing, because here 
EPA is charged with total responsibility for our water. With 
the Nation's official lead environmental agency giving unique, 
direct oversight of our local water, one would suppose that 
ours would be the safest water in the country. Who can believe 
that now?
    The Washington aqueduct was built more than 100 years ago 
by the Army Corps of Engineers to provide our water and has 
been run by the Corps ever since. We are totally dependent on 
the Corps' judgment concerning what goes into our water, 
subject, of course, to EPA regulations. Here is where the plot 
thickens. Were each of the three agencies playing their 
statutory roles, tantamount to a check and balances system, or 
was the WASA-EPA aqueduct connection a closed circle where each 
simply reinforced one another or acted as enablers?
    Of the many issues raised by today's hearing, three appear 
to be overarching: First, are EPA's science and regulations 
simply wrong? For example, how can the public know that its 
water is safe when the EPA allows WASA and other water systems 
to keep sampling once they discover high lead water levels 
until they dilute the harmful findings? Even then, how can EPA 
justify the most significant remediation it requires, namely, 
the replacement of lead service lines in homes, when now lead 
has been found in homes with lead, copper, and brass lines? Has 
the EPA ignored the best science available to the Agency?
    Second, has the main focus thus far on service lines in 
older homes been wrong? At the EPA briefing I had, it was not 
long before I wondered whether the switch from chlorine to 
chloramines had caused lead to leach from the pipes. When 
sometimes even more lead appeared in some homes after service 
lines were replaced and lead was found in the water in newer 
homes, this hypothesis became even stronger. If so, we have two 
problems: dangerous lead lines, and corrosivity of lead from 
chloramines that could be affecting all of us. What was the 
Washington Aqueduct thinking when it switched purifying 
chemicals; and did the Corps know what it was doing?
    Third, what is the appropriate public health response when 
lead is found in water? From the failure to follow regulations 
requiring public notification until today, all three agencies 
have seemed to be making it up or devising remedies as they go 
along. The result is a dangerously confused public. If nothing 
else comes from this hearing, I believe the public must know 
what to do until the problem is fixed. For example, filters 
that screen only up to 20,000 parts per million could hardly 
work when much higher levels have already been found.
    In 1993 I remember clearly, in the first of a less serious 
water scare, EPA used its emergency authority under section 
1431 of the Safe Drinking Water Act. This authority gives EPA 
broad power to take whatever actions are necessary to protect 
public health. When EPA used its emergency powers in 1993, it 
knew what to order. Today, however, EPA itself has become part 
of the problem, calling into question whether it can also be 
part of the solution.
    Nevertheless, the Agency cannot ignore its mandated 
statutory charge. Given the obvious confusion, the three 
agencies appear yet to have defined the problem and its causes, 
much less the solution. At the very least, however, the public 
must get valid, coherent instructions concerning what to do 
while the three agencies are figuring it out. Particularly 
those in vulnerable populations or of low or modest income must 
get the assistance required to ensure their drinking water is 
safe. If something less than the use of EPA's emergency powers 
is in order in a crisis of this magnitude, I will need to hear 
the alternatives spelled out this morning.
    I thank today's witnesses for their testimony and look 
forward to hearing from them. And I thank you again, Mr. 
Chairman.
    Chairman Tom Davis. Thank you.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Tom Davis. I ask unanimous consent that 
representative Jim Moran, a former member of this committee, be 
allowed to sit as part of the full committee today. Mr. Moran, 
your district is impacted on this. Would you like to make an 
opening statement?
    Mr. Moran. Thank you. My constituents thank you for having 
this hearing in such a timely and forthright manner with 
exactly the people that we need to be talking with. We're not 
here, obviously, to point any finger of personal blame at any 
of you. In fact, I know that the head of the water 
responsibilities at the Environmental Protection Agency lives 
in Arlington. The last thing he'd want is to endanger his 
children because of the poor quality of water.
    All of you we understand are as empathetic as we are in 
getting to the bottom of this. But we have a very serious 
problem. Something is seriously wrong. And I assume the public 
knows why we are attaching as much importance to this as we 
are. But just to reiterate what all of the witnesses know, lead 
is a very serious toxic element when it gets into the body. It 
interferes with our red blood cell chemistry. Depending upon 
the length and level of exposure, it can delay the physical and 
mental development of children. It causes deficits in the 
attention span, in hearing and the learning abilities of 
children. And in adults it can lead to strokes, kidney disease, 
and cancer.
    We know that we have to keep lead as much as possible out 
of the human body and certainly in the quantities that it has 
been entering through our water supply. We have a level of 15 
parts per billion that is allowable. And we found in the 
District of Columbia that 157 just of the homes that were 
tested have lead levels in excess of 300 parts per billion, 
which is rare. So we need to know how did it get in, how we can 
get it out, and how we can alert the public much sooner than 
they have been alerted.
    As Eleanor said, she has the most people impacted. I have 
several hundred thousand in northern Virginia, Arlington 
County, Falls Church, parts of Fairfax County that I share with 
Chairman Davis, drink this water. We thought, as Chairman Davis 
said, it wasn't a problem in Arlington because it was coming 
from lead service lines. Not so. They tested eight random 
samples and, of the eight, five were substantially in excess of 
the allowable amount of lead in water.
    Now they're having to test all 22 elementary schools. 
Arlington County is taking this very seriously. This is a full 
court press in Arlington County. I have talked with the 
Arlington County Board and they're applying every possible 
resource to addressing this. I know the Chair of the Arlington 
County Board is here. Likewise in Falls Church.
    Our local governments are doing everything they can. We may 
find that part of this is inadequate investment in the water 
infrastructure, particularly within our capital city, and 
that's not something that I think the D.C. residents should 
have to pay for. But certainly we have some Federal 
responsibility, particularly given the unique situation where 
the Federal Government is responsible for the capital city's 
water supply.
    We're going to get into the specifics of what happened and 
hopefully find out why, and then lead to some, hopefully, 
consensus on what we can do about it now. We appreciate all of 
the witnesses.
    And, Chairman Davis, let me conclude where I began by 
thanking you for having this very important and timely hearing.
    Chairman Tom Davis. Thank you very much.
    Any other members wish to make opening statements? The 
gentleman from Massachusetts, Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. Thank you for having 
this timely hearing. I want to say, I appreciate the witnesses 
for being here to help us work through this. I won't repeat 
what the previous people have said but I will put an emphasis 
on what I think is a concern here. When did people learn that 
this was an issue of the magnitude that we now confront and why 
wasn't the public told about it sooner? That is a concern for 
me. It seems to me to be a part of a path that is seen here 
sometimes with the EPA, whether it's the World Trade Towers, 
that the public doesn't get the information it should. Even if 
you don't know what the remedy is at a given time, why hasn't 
the public been allowed to know there is a problem so they can 
at least act on their own behalf?
    Second, why wasn't there more aggressive EPA action? Is the 
EPA going to use its emergency powers and, if not, why not? 
What is being done on that? We have a lot of people that are 
obviously impacted by this and some serious concerns. Mr. 
Chairman, we look forward to getting to the bottom of this and 
working with the witnesses to do that.
    Chairman Tom Davis. Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman. I'll be brief 
because much has already been said. I want to thank you for 
holding this timely and important hearing. What I would like to 
do is to get to the bottom of the question of exactly what 
agencies are responsible for what, to start with. Because 
reading the press and other coverage of this, there seems to be 
a bit of--and talking to people involved, there is a little bit 
of fingerpointing going on, saying it's the other guy's 
responsibility and not ours. And the results have been a 
failure for the consumer and the public as things fall through 
the cracks.
    The second is, given whatever responsibility an agency has, 
what information did they have and when did they have it and, 
more importantly, what actions did they take or did they not 
take in response to that information.
    And, finally, in addition to trying to figure out what 
happened and what went wrong in this case, obviously we are 
trying to figure out lessons to be learned both for the 
District of Columbia and the surrounding region, possibly for 
the entire Nation. I want to explore the question of whether or 
not D.C. is a canary in the coal mine, whether or not this 
could be the first indication of a much larger problem across 
the Nation.
    So thank you, Mr. Chairman for holding this hearing and 
look forward to the testimony.
    Chairman Tom Davis. Thank you.
    I appreciate our panel being with us through the opening 
statements. We're going to move to our first panel now. 
Testifying on the first panel we have the Honorable Benjamin H. 
Grumbles, the Acting Assistant Administrator for the 
Environmental Protection Agency Office of Water; Mr. Donald 
Welsh, the Regional Administrator, Environmental Protection 
Agency Region III; Mr. Thomas P. Jacobus, the general manager 
of the Washington Aqueduct, U.S. Army Corps of Engineers. We 
have Glenn Gerstell, the chairman of the District of Columbia 
Water and Sewer Authority. I understand you're accompanied by 
Jerry Johnson and Michael Marcotte. Is that right? We'll swear 
them in, too. It's our policy we swear witnesses in before 
their testimony so if you would rise with me and raise your 
right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Mr. Grumbles, why don't we start with 
you? We have your entire testimony as part of the record. We've 
read that, presumably, and we have questions off the entire 
testimony, which is part of the record, but we have a light in 
front of you. We try to give you 5 minutes to sum that up and 
make your points. When it turns orange, 4 minutes are up. When 
it turns red, 5 minutes are up. If you could move to summarize, 
then, try to keep us within time. But why don't we start with 
you? Thank you very much for being here.

       STATEMENTS OF BENJAMIN GRUMBLES, ACTING ASSISTANT 
   ADMINISTRATOR, OFFICE OF WATER, ENVIRONMENTAL PROTECTION 
AGENCY; DONALD S. WELSH, REGIONAL ADMINISTRATOR, ENVIRONMENTAL 
PROTECTION AGENCY REGION III; THOMAS P. JACOBUS, P.E., GENERAL 
MANAGER, WASHINGTON AQUEDUCT, ENVIRONMENTAL PROTECTION AGENCY; 
  GLENN S. GERSTELL, CHAIRMAN, DISTRICT OF COLUMBIA WATER AND 
   SEWER AUTHORITY, ACCOMPANIED BY JERRY N. JOHNSON, GENERAL 
  MANAGER, AND MICHAEL S. MARCOTTE, P.E., DEE, CHIEF ENGINEER/
                         DEPUTY MANAGER

    Mr. Grumbles. Thank you, Mr. Chairman and Delegate Norton 
and members of the subcommittee and full committee. I'm Ben 
Grumbles, Acting Assistant Administrator for the Office of 
Water in EPA.
    Mr. Chairman, you and others have a lot of tough questions, 
and so do we. We all want answers and we want action, and for 
EPA a top priority is to restore the quality of the drinking 
water and the confidence of the consumers in the region and the 
District.
    I'm going to talk about lead as a health hazard, and lead 
in drinking water generally, talk a little bit about the 
regulatory framework, and then talk about what we're doing 
nationally as well as locally. And Donald Welsh, the Regional 
Administrator, will focus on specific actions and oversight and 
enforcement here in the District.
    As has been stated by everyone so far, we all know that 
lead is an extremely serious public health concern. Too much in 
the body can cause brain damage, it can cause damage to the 
kidneys, liver, developmental systems. It's a real problem and 
EPA fully recognizes that.
    Lead exposure in young children has been dramatically 
reduced over the last two decades. The decrease is largely due 
to the 1973 EPA regulation to phaseout lead in gasoline between 
1973 and 1995 and to the reduction in the number of homes with 
lead-based paint from 64 million in 1990 to 38 million in 2000.
    I just want to emphasize that as important as lead in 
drinking water is, as a public health threat, lead paint, the 
dust from lead-based paint is a higher and a very important 
concern. That's where most of the exposure is. But today, what 
this hearing is all about and what EPA is focused on is making 
sure that the lead in drinking water is not a problem and is 
not a national crisis. We're going to work as hard as we can 
with members of the committee and everyone else to ensure that.
    Lead in drinking water amounts to approximately 20 percent 
of a person's exposure. In other words, the lead in a person, 
20 percent comes from drinking water. EPA and Congress have 
taken a lot of steps over the last 20 years to reduce the lead 
in drinking water. The 1986 amendments to the Safe Drinking 
Water Act banned the use of lead solder, took other measures 
and steps as well. Specifically there is legislation, the Lead 
Contamination Control Act of 1988, which also focused on lead 
in schools and the lead-lined water reservoir tanks. In 1988 
EPA proposed revisions to the existing standard of 50 parts per 
billion for lead in drinking water, and we issued a final lead 
and copper rule in 1991. That's the primary regulatory 
framework for the issues we're addressing today.
    Unlike most contaminants, lead is not generally introduced 
to drinking water supplies from the source water. So while one 
of the EPA priorities is source water protection, when it comes 
to lead in drinking water, a key focus is beyond just source 
water protection; it's focusing on the lead pipes and it's 
focusing on the other aspects of the infrastructure. And, as 
has been stated by the panel, it's focusing on the corrosivity, 
the chemicals, the combination of chemicals in the water.
    The rule basically requires systems to optimize corrosion 
control to prevent lead and copper from leaching into drinking 
water. The rule established an action level of 15 parts per 
billion for lead in drinking water. Systems must monitor a 
specific number of taps. If lead concentrations exceed that 
number in more than 10 percent of the taps sampled, then the 
system must undertake a number of additional actions to control 
corrosion and to inform the public about the steps they're 
taking.
    Now, although we are currently seeing problems, serious 
problems in the District, the lead and copper rule has proven 
to be successful in reducing levels of lead in drinking water. 
In 100 large systems serving more than 25 million people across 
the Nation, there has been progress noted. Information reported 
by the States to EPA indicate that only four of the large 
systems, one of which is the District of Columbia, has exceeded 
the action level within the past 3 years. That's three--or four 
large systems.
    The point is that while this is not a national crisis, it 
is a--it can be a local and regional crisis. It can be a 
manageable crisis. And it's one that we're very much focused 
on. And we're going to continue to investigate the matter in 
the weeks ahead as to how we responded.
    I just want to summarize the things that EPA National 
Headquarters Office is doing. This is a reminder of things that 
we all as a Nation take for granted when we turn on the tap and 
are expecting a glass of clean safe water. I am instructing my 
staff to do several things, and this is a national guidance 
throughout the country. One of them is to work with enforcement 
and regional drinking water program managers to engage in a 
thorough review of compliance with the 1991 lead and copper 
rule, particularly focusing on large systems. The second thing 
that we're doing is focusing on lead in schools.
    Now, based on the way the Safe Drinking Water Act is 
written, there is only so much the EPA can do in the regulatory 
role it has. But one thing we can do is to check throughout the 
country for what are the protocols and the guidance and what 
are the States and the local authorities doing with respect to 
lead. And we are doing that. And that's going to be a priority 
of the Office of Water.
    I know that my time has run out. I want to mention two 
other things, Mr. Chairman, if I might. Then I will conclude.
    We are currently planning to set up an independent review 
of the technical working group that is responding to the 
corrosivity issues. I know several citizens have said it would 
be good to have an independent panel to review what the 
technical working group is doing. And we are working on that. 
We think--we agree there needs to be some independent review of 
what the technical work group is doing.
    The last thing, and perhaps one of the most important, is 
that EPA from a national perspective, is reviewing the lead and 
copper rule and we are reviewing the guidance to see whether or 
not the rule needs to be strengthened or modified. The 
important thing is to learn lessons from this experience and to 
work with everyone to make sure that the water quality is 
restored and the confidence in the drinking water quality is 
also restored.
    I would like to now turn to Don Welsh who is the Regional 
Administrator, coming from the regional office of EPA.
    [The prepared statement of Mr. Grumbles follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Tom Davis. Thanks for being with us.
    Mr. Chairman and members of the committee, I'm Don Welsh. I 
am the Regional Administrator for EPA's Region III. Thank you 
very much for this opportunity to testify.
    I provided detailed responses to your committee's questions 
in the written testimony, and what I'd like to do now is to 
outline the actions we've taken to move forward to assist the 
District in protecting the health of its residents.
    It's unacceptable to us that many families in the District, 
particularly those with young children and pregnant women, 
continue to live with fear and uncertainty over the quality of 
the water they drink. The citizens of Washington, DC, demand 
and deserve much better. I know that these issues are important 
to the committee and the chairman as well, and I think that 
your calling this hearing will help advance the effort to find 
a solution.
    It's clear that the D.C. Water and Sewer Authority [WASA], 
was highly ineffective in informing the public about the 
magnitude of the problem of lead in drinking water and in 
conveying the steps that families and individuals should take 
to protect themselves. Both the region and headquarters offices 
of EPA are taking a critical look back at how the region could 
have done a better job in its oversight of WASA. There will be 
lessons learned from our reviews which will benefit the agency 
in the future.
    We're completing a thorough assessment of WASA's and the 
Aqueduct's activities to determine what violations of 
environmental law may have occurred and to ensure public health 
is protected. Our primary focus is on taking strong action with 
other agencies to help bring about solutions as quickly as 
possible to the current situation, both short term in ensuring 
a safe water supply for families and improving outreach 
efforts, and longer term in finding and fixing the root cause 
of the problem.
    The first priority is to ensure that citizens have safe 
water to drink. EPA has published consumer guidelines that 
should be followed by all residents to reduce their risk of 
exposure. These guidelines prescribe longer tap water flushing 
periods for those with lead service lines. Additionally, as an 
extra level of safety the District's Department of Health 
recently recommended that pregnant women and children under 6, 
those most susceptible to health effects from lead, not consume 
unfiltered tap water. We believe that this is a prudent and 
cautionary step to take at this time.
    I met this week with city officials to discuss the city's 
plans for providing safe water to residents. We discussed a 
number of actions that we consider advisable and necessary and 
will closely monitor the steps being taken in this area. If 
affected residents are not promptly supplied with safe drinking 
water, we stand ready and are fully prepared to exercise our 
authority to compel action.
    Technical issues regarding the corrosivity of the water 
need to be resolved. We are working with WASA, the Washington 
Aqueduct, and other outside technical experts to help determine 
the correct balance of treatment needed to both reduce 
corrosivity and maintain the optimum protection against other 
harmful contaminants that can be found in drinking water. The 
expert technical team has been researching these issues and 
will report preliminary recommendations to me by next 
Wednesday. We will ensure that measures recommended are 
implemented as quickly and effectively as possible.
    Mr. Chairman, I also appreciate the importance to you and 
to Mr. Moran of the recent reports of some elevated lead levels 
in drinking water above the EPA action level in Arlington, VA. 
We share that concern for the health and welfare of the 
residents in that area and in Falls Church. We're working with 
the Virginia Department of Health and the Arlington County and 
Falls Church water systems, and we know that they're planning 
additional sampling.
    Data from Arlington will be important in helping the 
technical team determine the cause of the problem and the 
appropriate solution. We will continue to keep the committee 
updated as we learn more.
    In D.C., the lead service lines themselves, which are the 
major source of the high lead levels, need to be replaced. We 
expect to award funding beginning in April in the form of $8 
million in fiscal year 2004 grant funds and $3.7 million in 
prior year funds to accelerate the replacement of these lines.
    In its outreach efforts, WASA failed in its responsibility 
to effectively inform all impacted parties about a problem with 
their water. Notifications to individual residents were often 
not timely and did not achieve the goal of getting information 
to those who needed to know. While WASA had EPA guidance that, 
among other things, advised that one of the most effective ways 
to get the message out is through direct contact with news 
media representatives, mass media tools were not used as 
effectively as they could have been.
    In hindsight, EPA should have more quickly assessed the 
effectiveness and impact of WASA's public notification program 
and promptly directed WASA to correct its deficiencies.
    We are auditing WASA's public information efforts to 
identify specific elements that failed, and we have revised our 
own oversight procedures to ensure that shortcomings in public 
outreach are identified earlier and corrected.
    Let me reiterate EPA's commitment to protect public health 
by identifying solutions to serious issues raised with respect 
to lead in D.C. drinking water. We must learn from the past, 
but I am focused on working on strategies that will help us 
move ahead in a positive way. To that end, I am directing WASA 
to test all lead service lines in 2004, to expedite 
notification to customers of the results of water sampling at 
their residences, to convey the necessary sense of urgency in 
all of its communications with the public, and to accelerate 
the physical replacement of lead service lines to the maximum 
extent possible.
    Working closely with our public service partners and 
concerned citizens, we will continue to aggressively 
investigate this matter in the weeks ahead, to provide needed 
technical assistance, determine the exact nature of the problem 
we are facing, and find an appropriate balanced solution. EPA 
will not be satisfied until all aspects of this problem are 
resolved and the citizens of D.C. can once again be confident 
in the safety of their drinking water.
    Thank you for this opportunity to testify and I look 
forward to answering your questions.
    Chairman Tom Davis. Thank you very much.
    Mr. Jacobus, thanks for being with us.
    Mr. Jacobus. Good morning, Chairman Davis and members of 
the committee. I am Tom Jacobus, the general manager of the 
Washington Aqueduct. The chart to your left shows in yellow the 
area served by Washington Aqueduct. The water we produce at two 
treatment plants in the District of Columbia goes to all of the 
residents of the District of Columbia, all of Arlington County, 
and to the city of Falls Church, which then operates a 
distribution system in that portion of Fairfax County, and 
water is further sold to Vienna. So the million customers of 
the three wholesale customers we sell to are represented on 
that chart.
    Our water is taken from the Potomac River and treated in a 
conventional treatment process using sedimentation----
    Chairman Tom Davis. Let me just ask if the staff could 
bring that chart a little closer over so the Members can see it 
a little better. Hold it flat out so maybe the audience can see 
it, too. There, is that better? Can everybody see that? Thanks.
    Mr. Jacobus. So to repeat, then, the area in yellow is the 
area served by water produced at the Washington Aqueduct from 
either the Dalecarlia or the McMillan treatment plants. We use 
conventional treatment which is a combination of sedimentation, 
filtration, and disinfection. The water that is sent to the 
customers from the Washington Aqueduct's treatment plant meets 
all EPA regulations and standards in terms of microbial 
activity and the chemical constituents of the water that are 
regulated in some way by EPA and other agencies.
    In addition to the water's chemical and biological property 
constituents, there is also the issue of the corrosivity of the 
water. Under the lead and copper rule of 1994, the Washington 
Aqueduct conducted optimal corrosion treatment techniques. And 
from that we adopted a practice of using pH control as the 
optimal technique. When we converted to chloramines in 2000, 
the reason we did that was to meet the new disinfection 
byproducts rule, which was regulating chemicals that would be 
produced as a result of this disinfection, a class of chemicals 
known as trihalomethones. The disinfection byproduct rule has 
been very successfully met through the use of chloramines.
    When we converted to chloramines we were aware there was a 
potential biological to chemical reaction that could increase 
the corrosivity of the water through nitrification in the 
distribution system. We monitored the system continuously for 6 
months, found no evidence of nitrification and have continued 
to monitor. The nitrification could change the pH of the water, 
which could make the water more corrosive. We found no evidence 
of that. As of right now we do not see a direct link between 
the change to chloramines and increased lead leaching.
    However, as part of our solution to this problem we're 
going to investigate that link and that information will be 
available to EPA, to the water industry, and to the public at 
large. We are dealing here with a problem of increased 
corrosivity of the water. We can handle that problem through 
the use of chemical treatment. We can reduce the corrosivity of 
the water, reduce the lead leaching from lead service lines, 
lead solder that might be still in homes, and lead in brass or 
bronze fixtures. We will be able to do that and still remain 
with chloramine treatment which is essential for the protection 
of the public for the disinfection byproduct rule.
    So in summary, I would like to say that we are committed to 
move quickly and safely to correct what appears to be a problem 
of corrosivity. We have a technical working group established, 
working very closely with the Environmental Protection Agency, 
the District of Columbia Water and Sewer Authority, the D.C. 
Department of Health. We have engaged clearly the best national 
and international consultants in corrosivity, and we're very 
confident that we can very quickly come to a decision on a 
revised chemistry and begin to introduce that into the 
distribution system in a way that will reduce what we're seeing 
in these lead concentrations. I look forward to your questions. 
Thank you very much for asking me here today.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Jacobus follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Tom Davis. Mr. Gerstell, thanks for being with us.
    Mr. Gerstell. Thank you very much and good morning, 
Chairman Davis and members of the committee. I am Glenn 
Gerstell, the chairman of the Board of Directors of the 
District of Columbia Water and Sewer Authority. I am joined 
behind me by our general manager, Jerry Jphnson, and our deputy 
general manager, Michael Marcotte. I'm very pleased to be here 
to provide testimony about WASA's past, current, and future 
endeavors regarding elevated lead levels in the homes of some 
of our District residents.
    First, I want to assure you that providing safe and clean 
drinking water to our community is our absolutely highest 
priority. Before responding to the chairman's questions, I 
would like to reiterate one point that Chairman Davis has 
already made and Mr. Jacobus just said, but because the point 
has been a little fuzzy in the news media, I'd like to 
underscore the fact that WASA provides the water, we do not 
produce it. WASA is responsible for distributing drinking water 
safely through our 1,300 miles of water mains under the streets 
of the District to individual homes and buildings, as well as 
to several Federal facilities directly across the Potomac in 
Virginia.
    As we've just heard, it's the Army Corps of Engineers, 
through the Washington Aqueduct, that draws the water from the 
Potomac, filters and chemically treats it to meet EPA 
specifications. While WASA, of course, works cooperatively and 
closely with the Washington Aqueduct, treatment issues are 
ultimately their responsibility.
    I'd like to respond to the chairman's questions by first 
briefly noting the history of this issue and, second, detailing 
what we are doing about it. Let's look at the history. The 
issue of lead in Washington's water supply isn't new. We've 
known for many years that we have lead service pipes in 
thousands of homes. But for many years tests showed that those 
pipes were not leaching lead. And year after year, our EPA-
approved tests showed acceptable trace levels of lead.
    The situation changed in the fall of 2002 after results 
came in from samples taken in compliance with EPA rules during 
the 2001 and 2002 testing period. During that time, 53 homes 
were tested and 26 exceeded the EPA action level of 15 parts 
per billion of lead. WASA then notified the EPA and the D.C. 
Department of Health about the situation as well as directly 
informing the affected customers. In its publications and 
notices, WASA used the prescribed language set forth in the EPA 
regulations.
    I'd like to underscore that point: WASA believes it has 
complied with all Federal regulations on this matter.
    And to dispel another erroneous impression left by some 
news reports, WASA does not deliberately sit on any 
information. Through early 2003 the informed judgments of WASA 
management were based on data from just those 53 homes. In 2002 
and 2003 the regulation sample sizes were also small, and there 
had been many years of testing without an exceedance. At the 
time, our management had no reason to question the steps it was 
taking under EPA regulations. It was just this past December--
December 2003 and early January 2004--when significant amounts 
of new data became available after being analyzed and 
aggregated which told us the scope of the increased 
concentrations. While those results were certainly significant, 
we also need to put this issue in context.
    The problem appears to affect primarily single family homes 
with lead service lines. As far as we know, apartment buildings 
and commercial office buildings are generally not affected, 
since they do not have lead service lines. So the problem 
appears to be concentrated in about 23,000 homes out of 130,000 
service lines throughout the District. We recognize it could be 
more.
    The records WASA inherited from the District Government are 
old and not complete and based in many cases on individual 
plumbers' reports made when a house was constructed in the last 
century. I have here and will give copies to the committee 
staff of the plumber's report. This one happens to be from, 
looks like June 27, 1909. And these are individual plumbers' 
reports. We have put all these on a computer, but the fact that 
they're computerized doesn't change the fact that the 
underlying data of which houses have lead service lines and 
which don't is literally something from the last century. In 
many cases we have no information about whether those pipes 
were ever replaced.
    Until recently there was no reason to update this 
information, especially given all the other capital 
improvements WASA needs to do. As part of the EPA compliance, 
we launched a number of public education activities and began 
replacing lead service lines. The opinion at the time of our 
management, given the small pool of samples and the history of 
years of not having a problem in this regard, was that it would 
have been irresponsible to raise great alarm because of the 
small number exceeding the action level at that point. We did 
communicate directly with customers, and that was the 
responsible thing to do.
    There has been criticism that the public campaign in 2002 
and 2003 in accordance with EPA rules didn't raise the alarm 
loudly enough. I recognize that. That may be the correct 
judgment in hindsight, especially now that we know that lead 
levels were apparently even higher than were known at the time. 
But I think at the time, a reasonable person would have 
concluded that the approach then reflected a fair balance of 
the relevant factors and evidence. I have said, and will repeat 
here again, that I believe in retrospect there was clearly room 
for improvement in our public education campaign.
    Our other outreach efforts, included preparing 
comprehensive brochures in 2002--I have copies of this and will 
be pleased to provide it to the staff--public service 
announcements, ads in the Washington Post in 2002 and 2003. We 
created a lead services hotline and publicized that over a year 
ago, in January 2003. We sent letters to various local 
government officials, had meetings of advisory neighborhood 
commissions. And then in 2003--this past summer, we started 
taking more samples, ultimately reaching over 6,000 samples. By 
January 2004 the final results showing significant increases 
were known. At that point, WASA management had planned to make 
an announcement. However, information was shared with the press 
by a citizen before WASA was able to do so.
    Let me now turn to what we are doing about the problem. 
I'll briefly outline six steps that we're taking. First, 
getting to the root of the problem. As we have already heard, 
we are conducting research in collaboration with our partners 
on why there has been such an increase in lead levels. We know 
that lead is not present in our water mains. We're working with 
the EPA, the Washington Aqueduct, the D.C. Department of Health 
and respected scientists and experts, and we expect to have a 
preliminary report later this month.
    Second, we will increase the number----
    Chairman Tom Davis. We want to make sure that you send that 
report to the committee.
    Mr. Gerstell. I will be delighted to, and will certainly do 
so.
    [The information referred to follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Gerstell. Second, we will increase the number of lead 
service pipes replaced this year by 50 percent. The Board has 
decided, in conjunction with management's recommendation, to 
increase that and to allocate an incremental $7 million to that 
program. We will be focusing in particular on those lead pipes 
with the highest lead readings, where pregnant women or where 
children under the age of 6 live. If we do that, we then will 
be increasing the replacements from 800 to over 1,300 this 
year. And we expect to replace an additional 300 service pipes 
in connection with other activities that WASA is already 
undertaking.
    Since lead pipes are in both the public and private space, 
we'll work with homeowners when they ask us, as we will suggest 
to them, that they replace the portion in private space at cost 
if they ask us to do so. We're currently having discussions 
with the District Government about obtaining financial 
assistance and providing financial assistance to individual 
homeowners who might have difficulty in paying for their 
portion of the replacement. We continue to send test kits upon 
request to homes with known lead service pipes, and WASA pays 
for the testing.
    Third, the Board of Directors, which consists of a number 
of government officials and non-salaried private citizens such 
as myself, is taking this matter very seriously. We are 
devoting an extraordinary amount of attention to this issue. We 
have had a special Board meeting solely on this issue. We have 
heard from experts at our regular February and March board 
meetings. We have conducted various committee meetings and 
conducted several press briefings to get current information 
out to the public. Just yesterday at our monthly meeting, the 
WASA Board of Directors adopted a resolution to begin a formal 
investigation into this matter. We are retaining the services 
of the firm Covington and Burling, and heading that review will 
be former Deputy Attorney General of the United States, Eric 
Holder, who is a partner of that firm and also, as you know, is 
a former U.S. Attorney for Washington. He will be able to draw 
upon the expertise of two distinguished experts, the director 
of the School of Public Policy and Public Administration of the 
George Washington University and a distinguished professor at 
the Johns Hopkins Bloomberg School of Public Health.
    Fourth, we're seeking to verify whether the problem can be 
ameliorated simply by flushing water through a home's plumbing 
system. Obviously, this isn't an ideal or permanent solution. 
But if it turns out that lead service pipe replacement is the 
only answer, we will need interim steps.
    Fifth, at the initiative of WASA management, the Brita 
Product Co. generously donated 10,000 water filtration pitchers 
to the District. We've distributed some of those to home day 
care centers, and we will be distributing those to homes that 
have children under the age 6 or women who are pregnant and 
breast-feeding, if those homes have lead service lines.
    Finally, it's critically important to let residents know 
about all of these activities underway. We have stepped up our 
communications with our customers through regular press 
briefings. We have mailed letters to all of our residents in 
English and Spanish, with accompanying literature on this 
subject. The March issue of our customer newsletter highlights 
lead in drinking water and precautions residents can take. 
We've updated our Web site almost daily. That's www.DCWASA.com. 
Indeed, we just arranged on the Web site to put information 
about the lead service lines and connect it directly with 
information about a homeowner's account. So it's now possible 
to log on to our Web site, type in your name and password, and 
determine whether your home has a lead service line.
    I'd like to conclude by noting that we at WASA are very 
clear about our goal in this area, which is to provide safe and 
clean drinking water to the community. We welcome the 
collaboration formed with our partners, some of whom are here 
today, who share our immediate objective: identify the cause of 
the problem, find a solution that works, and tell the public 
about it at every step along the way.
    Mr. Chairman and members of the committee, thank you for 
this opportunity to inform the committee and thus the public. I 
would be happy to answer any questions you may have.
    Chairman Tom Davis. Thank you.
    [The prepared statement of Mr. Gerstell follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Tom Davis. My first question is, what do you say 
to someone who is in the District of Columbia, or even in 
Arlington, or maybe out in Fairfax, who gets their water from 
Dalecarlia or has a lead pipe delivery system? What do you tell 
them to do today while we're waiting on everybody to fix it?
    Mr. Gerstell. The advice we're giving is twofold at the 
moment. One is in conjunction with the Department of Health, 
which has issued an advisory. Certainly if someone has a home 
that has a lead service pipe and there are pregnant women and 
children under the age of 6 or women breast-feeding, we 
recommend that they do not drink the water or the----
    Chairman Tom Davis. How about me? I'm neither one of those.
    Mr. Gerstell. For anyone else, we are continuing to suggest 
a program of flushing for up to 10 minutes if you have a home 
that has a lead service line. And we believe that 10 minutes is 
the appropriate time to get the water out of the system.
    Chairman Tom Davis. Does EPA agree with that?
    Mr. Welsh. That's the same advice we would give and we have 
up on our Web site as well, that everyone should know and 
follow the flushing protocol, whether or not you have a lead 
service line. If you believe you may have a lead service line, 
follow the more extensive flushing protocol.
    Chairman Tom Davis. It's going to mean a lot more water 
usage, isn't it?
    Mr. Welsh. Unfortunately, that's correct. If you are in the 
sensitive population, as Mr. Gerstell said, that we recommend 
that you--we concur with the recommendation by D.C. Health that 
you not drink the unfiltered tap water.
    Chairman Tom Davis. Mr. Grumbles, let me ask you, what are 
the emergency options that you would have right now? I am just 
asking, and not necessarily saying what we should do, but what 
authority do you have under the law to act in an emergency 
situation like this right now.
    Mr. Grumbles. The Safe Drinking Water Act says that--there 
is a section, section 1431, that does provide an authority when 
there is an imminent and substantial endangerment, and when the 
State and local authorities are not acting properly in response 
to that. Then the agency does have an authority under that 
section of the Safe Drinking Water Act to issue an imminent and 
substantial endangerment. And we have done that, and we are, I 
would say, aggressively pursuing that option, looking at it.
    I would just like to refer to Don to add any more----
    Chairman Tom Davis. If you could be a little more specific. 
Also, we still don't have our hands around the problem, do we, 
in terms of exactly where the problem is, if it is the 
distribution or the production, do we?
    Mr. Grumbles. I would say that you are correct. There are a 
lot of questions, corrosivity, what is causing the 
corrosivitiy, should we focus just on the lead service lines, 
and clearly the answer to that is no. I mean, from other 
jurisdictions we are learning it is much more than that. There 
are technical, factual questions. We feel that--we fully 
support the effort to have a technical working group that 
everyone is part of.
    We think it is also important to have some independent 
review of that as well, to try to get maximum approach, because 
we all know that as important as action, immediate action, in 
response to this situation is, we need to make sure that it is 
based on the scientific--the best scientific approach, and it 
does involve a lot of analysis of the chemistry, and the 
various factors that are involved.
    Chairman Tom Davis. So before you spend millions in one 
direction, you want to make sure that you are doing the right 
thing to correct the problem?
    Mr. Grumbles. That is correct.
    Chairman Tom Davis. Mr. Welsh, do you want to elaborate on 
that?
    Mr. Welsh. Yes, sir. The mayor of D.C. named the city 
administrator as his point person on this issue. And on Tuesday 
I met with the city administrator and did review with him the 
fact that we have the authority that Ben mentioned in 1431 of 
the Safe Drinking Water Act. We discussed a number of things 
that we think are of primary importance that need to happen, 
principally that the folks who have been advised not to drink 
the unfiltered tap water be provided with an alternative source 
of water through filters or some other means.
    Several other actions that we think are advisable or that 
we think are necessary to address the situation, principally 
making sure that folks have safe water to drink while we do 
that technical work to get the answers to the corrosivity. And 
we have been in contact since then repeatedly with the D.C. 
Emergency Management Agency and with other representatives of 
D.C. government to get fully informed about the steps that they 
are taking to address those needs. And we are fully prepared to 
act with the authority that we mentioned under 1431 if we 
determine that is the best way to get a solution.
    But we have been in close contact with D.C. and continue to 
be as to the plans that they are making and the implementation 
of those plans to meet those immediate needs, and we stand 
ready to act and are quite prepared to do so whenever we 
determine that is the best way to get a solution.
    Chairman Tom Davis. Let me ask this. How does EPA or any 
water system balance the comparative risks? In this case you 
use chloramines to reduce disinfection byproducts. It appears 
to have reduced the benefits of the corrosion control program. 
At the time the District switched to using chloramines in 2000, 
would that switch have been required by EPA if the District had 
not switched on its own? And at that time, did EPA have any 
evidence that chloramines would increase corrosion and lead to 
more lead in the water?
    Mr. Grumbles. Mr. Chairman, you are raising one of the most 
fundamental issues and challenges for those who are on the 
front lines in providing safe drinking water to the American 
public, and that is the issue of simultaneous compliance with 
the various regulations. The regulations are based on sound 
science, but this is a perfect example that Tom Jacobus is 
pointing out, that whereas the science tells us that we need to 
take more steps and be more concerned about disinfection 
byproducts, trihalomethanes, based upon the important work that 
chlorine does as a disinfectant, that leads to taking various 
steps and procedures. Then the question is, as well, will that 
have some effect on corrosivity, and will you be risking 
noncompliance with the lead and copper rule if are you going 
forward on that step?
    I can tell you that as a Federal agency and as national 
program managers, we are very much focusing in on that 
simultaneous compliance conundrum.
    Chairman Tom Davis. In fact, this could be a national 
issue, not just here, in terms of----
    Mr. Grumbles. It is a national issue. It is one that 
utilities live with and work with and that we recognize as part 
of the challenge and the difficult nature of meeting all of the 
requirements in providing safe water.
    Chairman Tom Davis. Thank you.
    Ms. Norton.
    Ms. Norton. When the science isn't perfect, and it often 
isn't perfect, at the very least what the regulations seem to 
require is that people be informed.
    So the first problem I have has to do with the action WASA 
took in informing people. Now, I am showing you a posterboard 
that says that within 60 days, when you know that the part per 
billion level has been exceeded, this language has to appear in 
water bills.
    Now, this language has to appear in large print the way it 
is on that posterboard, and that language says, some homes in 
this community have elevated lead levels in their drinking 
water. Lead can cause a significant risk to your health. Please 
read the enclosed notice for further information.
    Why did WASA not do this?
    Mr. Gerstell. My understanding is that we did; that was put 
in our bills. And I have a copy here in front of me of the 
notice, the two-page notice that was referred to. That is----
    Ms. Norton. My understanding is----
    Mr. Gerstell. The date on it is 2003. I am sorry.
    Ms. Norton. I am talking about in the water bills.
    Mr. Gerstell. There was a statement in each water bill.
    Ms. Norton. This is just the kind of response--you know 
good and well I am talking about 2002, and you are talking 
about 2003.
    Mr. Gerstell. I apologize, I am sorry. I was not----
    Ms. Norton. We are talking about when this problem began. 
Your answer should have been, we didn't do it in 2002, we did 
it in 2003. And this is the kind of thing--we want to get some 
candor now from WASA.
    Mr. Gerstell. I misunderstood your question. I thought you 
were referring to 2003.
    Ms. Norton. If you read the question before the answer, you 
would have a clear view of any problem. We want to know why you 
didn't do it in 2002, within 60 days after you discovered more 
than 15 parts--more than above 15 parts per billion.
    Mr. Gerstell. Would it be acceptable if I asked Mr. 
Johnson, our general manager, who is more familiar with the 
operations?
    Ms. Norton. Mr. Gerstell, I don't know why you are the one 
testifying. If he has been the one who has been closest to it, 
we should have been hearing from him. We want to know what 
actually happened.
    Chairman Tom Davis. He is sworn in. We will let him answer 
it.
    Mr. Johnson.
    Mr. Johnson. Thank you, Ms. Norton.
    Chairman Tom Davis. Let me ask that staff maybe move 
another chair up there.
    Go ahead.
    Mr. Johnson. Thank you, Ms. Norton and Chairman Davis. At 
that time we were doing quarterly billing, and so in order to 
comply with the regulation, after conferring with EPA we sent 
notices to every household in the District of Columbia through 
a special mailing that did contain that special language.
    Ms. Norton. You are telling me that in 2002, in quarterly 
bills, you sent this notice in these capital letters?
    Mr. Johnson. It was sent in a special mailing to all of the 
customers.
    Ms. Norton. All right. First of all, that is not my 
understanding.
    Mr. Johnson. OK.
    Ms. Norton. My understanding is that you did that in 2003 
and not in 2002, and I am talking about 2002. Now, this is what 
my understanding is: That instead of doing that in 2002, you 
instead issued this brochure. This brochure is entitled, 
District of Columbia Water and Sewer Authority and the District 
of Colombia Department of Health National Lead Awareness Week. 
Living Lead-Free in the District. And buried on page 3 is the 
following language: However, in the annual monitoring period 
ending June 30, 2002, the lead results indicate that although 
most homes have very low levels of lead in their drinking 
water, some homes in the community have lead levels above the 
EPA level of 15 parts per billion.
    If you think anybody goes through these things and reads 
down to page 3 in small print, then you know more about the 
way--how busy people are than I do. But, more than that, that 
is what is required.
    In 2002, our information is that was not done in water 
bills. Are you contradicting that? You are saying in water 
bills right after this, as language was required, you, in fact, 
in the next water bill put that language in those capital 
letters, and that EPA can verify that happened?
    Mr. Johnson. No, ma'am, Ms. Norton. I am not verifying 
that. I know that we did send this brochure, as you did point 
out, to every household in the District of Columbia in order to 
meet the requirement to get the notice to persons within that 
timeframe that is required in the law, because we were not 
doing monthly billing at the time.
    Ms. Norton. Well, I can understand that if you didn't--
first of all, I want to ask EPA, why--you gave them a way out, 
which they should not have taken, because they could have done 
it in the next monthly water bill, and they could have done it 
in capital letters, as your regulations require. But why did 
you let them do this? What kind of watchdog are you? Why don't 
you say, hey, if you are going to do it in this brochure, then 
certainly you have to comply with our regulations and do it in 
capital letters so everybody is on notice that there is lead in 
their water, or may be lead in their water?
    Mr. Welsh. It is my understanding that because they did not 
have a monthly billing cycle, that this special mailing did 
meet the requirements, that the timing of that mailing met the 
requirements. It is clear that there are many parts of the 
notification to the public that suffered from what you noted, 
that they were--it was difficult, even though the information 
was made available to the public, for people to quickly and 
readily recognize that is something that should be important to 
them and they should take notice of.
    So we hope to be able to do a better job controlling that 
in the future to make sure that we not just look for whether 
the requirement was met, but that it was effective.
    Ms. Norton. I just want to say that this was clearly done 
deliberately. There was a way to do it that was written in the 
regulations in capital letters. You chose to do it a way that 
was least likely for the public to be on notice that there was 
lead in the water.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you.
    Before I recognize Mr. Moran, I would just ask, just to 
followup with EPA, and even WASA, wouldn't you agree that the 
way this notice was delivered is probably not going to get a 
very heightened awareness on the part of the recipient, in 
retrospect?
    Mr. Johnson. Mr. Chairman, in hindsight I would certainly 
agree with that. At the time that we were preparing the notice 
to go out, we felt that it was appropriate to meet the 
requirement, especially given the very small sample that we 
were dealing with at the time, which was only 50 homes in the 
District of Columbia.
    Chairman Tom Davis. OK. Mr. Moran.
    Mr. Moran. Thank you very much, Mr. Chairman. I know Mr. 
Johnson, and I know him to be a very fine person and an 
excellent manager. So, again, I don't see this as trying to 
point personal blame, but we all have to work together to 
figure out what took place and how we are going to deal with 
this.
    The first that you were aware that we had a problem, the 
first date, must have been this lead and copper report for the 
monitoring period that ended June 30th. That is the first time 
you knew that there was a serious lead problem?
    Mr. Johnson. We had some indication of elevated lead levels 
in the previous year where we saw a trend where the numbers 
were increasing, but we had passed the requirements in the 
prior year, and we were monitoring that more closely at that 
point.
    Mr. Moran. Well, but so you knew that there was a problem, 
though, prior to that. At some point during this period, it 
seems as though EPA extended the period of time that you could 
have before having to submit reports. At one point they were 6-
month reports, and then EPA said that it is OK to just submit 
annual reports; isn't that accurate? When did that occur, 2000?
    Mr. Welsh. I think you might be referring to originally 
when the rule went into place, jurisdictions had to do 100 
samples annually if they were not over the exceedance level.
    Mr. Moran. You let them drop to 50 samples, and instead of 
reporting every 6 months, you let them take a year to report.
    Mr. Welsh. The rule allows reduced monitoring if you have 
been meeting--if you have not been exceeding the action level. 
And D.C. originally in the early 1990's had some problems, had 
some numbers above the action level. Steps were taken to 
address the corrosivity, and those steps worked at that time. 
Their sampling returned to being under the action level, and 
then they were allowed to do reduced monitoring of 50 samples 
annually.
    Mr. Moran. They requested that, and then you granted it 
immediately. And so then they only had to report on a yearly 
basis. It appears that we would have at least picked up 6 
months of awareness if we hadn't extended that. But then as 
soon as you got this report, you then went back to say, well, 
you have to monitor it every 6 months, and you have to give 
us--do at least 100 samples. But, beyond that, you also knew 
that this was extraordinary, where about half of the samples 
showed they exceeded their 15 parts per billion.
    So I guess I do want to followup with Ms. Norton's and 
Chairman Davis' questions. At what point did you say, look, we 
have to get serious, we have to make the public aware of this, 
you have to let them know that they fully understand the 
warning that you are giving them? Were you working in close 
contact with WASA to make sure that was being done?
    Mr. Welsh. As you mentioned, the numbers that were received 
by EPA on August 27, 2002 indicated that there were 
exceedances. The requirements that you mentioned are triggered 
automatically, so we don't have to tell them that you need to 
do this. They know that triggers the increased monitoring, 
increased sampling, as well as continued work on lead service 
line replacement and the public outreach and education 
requirements. So those things kick in automatically.
    WASA began carrying them out. EPA believed that those steps 
were being carried out. It is clear in hindsight that even 
though the steps were being taken, that the message wasn't 
being clearly received by the public. But the requirements are 
triggered automatically by the data that was----
    Mr. Moran. So if you had to do it over again, you would 
have said, you are going to make sure that the public fully 
understands what we are doing here, and the notification has to 
be more--has to be clearer. And the public needs to know the 
seriousness of this, which they clearly didn't at this point.
    We have now gone for 3 years where the water has contained 
serious amounts of lead. We know the seriousness that lead can 
have in the body. Is there any way where we are going to know 
what adverse impact this has had on the community? I mean, are 
we going to followup with those homes, for example, that we 
know that had way in excess of 300 parts per billion, some had 
thousands? I read one report that one couple had 
extraordinarily rare high amounts. That must be damaging if 
they have been using tap water. Are you going to monitor their 
health? Do we know what kind of an impact that this could have 
had to go for 3 years with their drinking this high lead 
content in their water?
    Mr. Welsh. It is my understanding that the D.C. Department 
of Health is following up with the individual families that had 
the very high levels. The way to know whether there was--the 
first indication of whether there could be a health impact is 
to get a blood-lead level from the people drinking the water in 
that home.
    Mr. Moran. Well, let me go beyond. We are just talking 
about the samples, like in an audit you find some problems. 
These are people who, by happenstance, happened to be sampled. 
There could be other families, could there not? Well, there 
have to be statistically. There have to be a lot of families 
who are also exposed to that, but we don't know what families 
have--that didn't happen to have been sampled have also had 
extraordinarily rare but dangerous levels of lead in the water. 
Is that accurate?
    Mr. Welsh. As Ben mentioned earlier, lead in drinking water 
is only one avenue of exposure to lead. So we think it is 
important that folks who are exposed to lead through any avenue 
could be----
    Mr. Moran. Well, I appreciate that. We are talking 
specifically now. I don't want to take up too much time, but I 
want to get some answers. How serious is this? If somebody has 
these high, elevated levels of lead coming into their system 
over a 3-year period, do we have any analysis of what kind of 
adverse health effect this is likely to have?
    Mr. Welsh. Well, the exposure does vary by how much water 
was being drunk and whether it was being used to cook and 
dilute juices and things like that. So the only way to really 
know--and the health professionals advise that people who have 
been exposed get blood lead levels tested.
    We had an opportunity in Philadelphia to pilot an outreach 
with the health community to have nurses go into homes and 
educate families about reducing their lead exposure from 
things--all sources of lead. And we are looking at trying to 
replicate that in D.C. to augment the efforts of the D.C. 
Department of Health to get out into the community and make 
sure that people understand about lead, and to recommend that 
people who may have been exposed get their blood-lead level 
tested. So the only way to know the health impact is to measure 
the blood-lead.
    Chairman Tom Davis. We will get another round.
    Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    I direct my questions initially to the two witnesses from 
the EPA. The Safe Drinking Water Act, as you mentioned, gives 
the EPA authority, and emergency authority when you want, to 
address threats that are substantial in nature. In 1993, the 
EPA exercised that authority.
    You stated in your testimony that you are going to take 
whatever action is appropriate here. Now, we knew since the 
summer of 2002--there have been samples showing extremely high 
levels on this. Isn't it time that authority be exercised in 
this instance, and are you intending to do that? And exactly 
what are you going to do under that emergency authority?
    Mr. Welsh. Well, we think the thing that is immediately to 
hand that we want to make sure of is that folks who have been 
advised not to drink the unfiltered tap water have provision 
for water, and we have talked to the city about that. We have 
told them we have this authority. We told them that we are 
ready to use that authority, and we are monitoring very closely 
their provision of filters. I believe the mayor announced some 
filters yesterday. And we want to make sure that the folks who 
need to have that provision have it. We have----
    Mr. Tierney. You have not exercised the emergency authority 
yet, you are just----
    Mr. Welsh. That is correct, sir. We have not.
    Mr. Tierney. When do you think it would become appropriate 
for you to exercise that emergency authority, given the history 
that we have here?
    Mr. Welsh. Well, at any moment that we think that would be 
the best way of getting a solution. The city is acting, and we 
are monitoring very closely their actions. And if we think that 
their actions aren't adequate to address the needs of the 
people to have safe water, we are ready to invoke those 
authorities immediately.
    Mr. Tierney. Now, Mr. Grumbles, I think we should all be a 
little concerned about the EPA's drinking water lead rules. The 
rules themselves, and EPA's oversight of those rules, simply 
don't appear to have been adequate in this situation.
    Now, I understand, looking at a little history of this, 
back in 1991 when the rules were being promulgated under the 
first Bush administration, Mr. Waxman on this committee raised 
a lot of the issues and loopholes that appeared to be in there, 
and now it is sort of eerie that here we sit in 2004 watching 
this all come to fruition.
    In 1991, EPA sort of retreated from setting a standard for 
lead that was definite. As I note, the act itself requires you 
to set enforceable maximum contaminant levels for each 
contaminant in drinking water. If the water exceeds the amount 
that is allowed, then it is a violation of the law, and EPA and 
everybody, and a citizen even, could bring enforcement action.
    But in 1991, with respect to lead, there was no definite 
contaminant level that was set. In fact, this is called an 
action level. If you exceeded that, then you just--would 
trigger only additional regulatory requirements.
    Given the information that we have now, don't you think it 
is time to revise that rule, take a look at it and change it?
    Mr. Grumbles. Congressman, I honestly can't begin to even 
think of it as a partisan rule and implementation of the rule 
as being a partisan issue.
    Mr. Tierney. Well, address the question that I asked you 
then, which is that in 1991, Mr. Waxman, you know, for whatever 
party he is in, I think raised some very salient issues that 
this was a rather weak way to go about doing it, and that when 
we had contaminant levels for every other contaminant, in this 
case we only had an action level. Given the history then, ought 
we to have more, should we change that, and why do we look at 
it strictly for procedure?
    Mr. Grumbles. I think you are asking some very good 
questions, and my answer is as follows. In the 1991 rule that 
was finalized, it did ultimately take an important approach. It 
made the decision that, because what we are talking about is 
the quality of the drinking water at the tap, more so than the 
quality of the drinking water as it leaves the treatment plant, 
you need to take that into account so that the rule is workable 
and really does result in clean and safe drinking water. And 
so, based on that, the decision was that this is a unique 
situation. It requires an action level. An action level 
triggers a lot of actions.
    I can tell you right here that we are not comfortable with 
the way the situation has played out in the District of 
Columbia under the lead and copper rule. When you look at 
reporting, or public education, as Delegate Norton was 
mentioning, the spirit of robust public communication, whether 
or not the public was getting what they really needed to get in 
real time, we are more than willing to look at that rule over 
the last 13 years. It has been a while since it has been 
revised.
    It was revised slightly back in 2000 during the previous 
administration, adding some more flexibility in some of the 
monitoring and reporting provisions. We are fully prepared, and 
I am instructing the staff to look very seriously at it, to 
learn the lessons of today and see whether there needs to be a 
more specific focus; should there be more actions that are 
triggered, not just at a 15 part per billion level, but at a 
different level.
    So I welcome the line of inquiry. I think it is very much a 
part of the important debate that follows on this. But I do 
want to emphasize that the lead and copper rule has been 
successful in this to the extent of reducing the problems that 
we have seen.
    Now, a lot of this is from data that we get from the 
States, and we need to work with them to ensure that there is 
more data that is being provided to us, but since finalization 
of the rule, there has been progress made in the lead and 
drinking water situation. And we want to work with everyone to 
really have a thorough review to see what we can learn from 
this situation, to see if more revisions ought to be made, more 
emphasis on right to know, communication. That is a priority 
for us, as this situation plays out full well, is the more that 
the consumers and the citizens know about the quality of the 
drinking water, the better it is for everyone, and to prompt 
more action if it is called for.
    Mr. Tierney. Thank you, Mr. Chairman. I know my time is up, 
but the point on that was that had we had a better rule, as in 
line with other contaminants on that, then citizens would not 
have had to wait for all of this to unfold or whatever. 
Citizens could have taken some action and protected themselves.
    Chairman Tom Davis. Thank you.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman. Obviously there is 
a lot of territory to cover here.
    I would just like to go back to the issue of when you first 
learned of the problem and what notices were provided, because 
we have been focusing on 2002 and 2003. And the Washington Post 
had an article, and let me direct this first to Mr. Welsh, if I 
could. But the Washington Post had an article that said from 
July 2000 to June 2001, 50 houses were tested, and 7 houses 
were found to have lead levels that exceeded the EPA action 
level, the 15 parts per billion. According to the Post story, 
by invalidating some of those results and retesting some of the 
houses, WASA brought the number of houses with exceedances down 
from seven to four and, therefore, avoided the EPA trigger of 
the 10 percent trigger.
    I want to know what you know about this particular issue. 
Does WASA have the authority to invalidate test results? And if 
you could just provide the committee with all of the 
information that you have about this Washington Post story and 
the allegations made there.
    Mr. Welsh. When I heard about the story, I asked the same 
questions about when and how samples could or couldn't be 
invalidated. And I understand that we were not requested to 
invalidate any samples. And we, in fact, went and looked at the 
actual raw data and the data that was reported to us and saw no 
evidence that samples had been invalidated.
    So my information is that we did not approve the 
invalidation of samples, and we don't see any evidence that 
samples were invalidated.
    Mr. Van Hollen. Let me then ask WASA, whichever of the two 
gentlemen would like to answer the question. But, again, there 
is the Washington Post article that made these statements. I 
would be interested in your response to that, because the 
allegation is that much earlier than we are talking about, a 
year earlier than we are talking about, there were tests that 
indicated that lead levels exceeded the EPA requirements, and 
that by manipulating the results or retesting, you escaped the 
trigger. Could you please comment on that?
    Mr. Johnson. Yes, sir. I would like to rather refer to what 
actually occurred during that period rather than trying to 
validate what was in--reported in the Washington Post. And as I 
understand the lead and copper rule, it provides that there are 
two ways to meet--once you have hit the trigger, you have to 
eliminate 7 percent of the lead service lines in the system in 
that year. We were--and there are two ways to accomplish that. 
One way is to physically remove the lead service lines, and 
another way is to retest. And if you retest, and the lead 
levels are below the action level, then you can literally take 
them off that list in order to meet the 7 percent.
    We did about 580 some actual physical removals during that 
period and through testing got the number down from the 7 
percent within the period that we had to get this done.
    Mr. Van Hollen. Let me make sure I understand you, because 
that was not my understanding of how it works.
    Mr. Welsh. Mr. Van Hollen, I believe that there are two--
perhaps it wasn't clear what the question was. Mr. Johnson is 
talking about the sampling--the lead service line replacement 
work that they needed to do. The article in the Post was not 
about that, but about the actual routine monitoring standards.
    Mr. Van Hollen. Exactly. If I can just go back.
    Mr. Johnson. I misunderstood.
    Mr. Van Hollen. The assertion was this has to do with the 
test. I am not talking about the replacement of the pipes. I am 
talking about the water sampling, the testing. And the 
assertion is, and I want to get to the bottom of this, that in 
this period July 2000 to June 2001, there was water sampling 
that went on; that the water sampling--that the results 
indicated that you--that there was exceeding--we exceeded the 
EPA levels, but because of essentially retesting in order to 
get different results, WASA was able to not trigger that 
requirement. Are you not----
    Mr. Johnson. I misunderstood the question.
    Mr. Van Hollen. Are you aware of that Washington Post 
article?
    Mr. Marcotte. My name is Mike Marcotte. I am chief 
engineer/deputy general manager of the Authority, and, yes, I 
am aware of the article. Yes, I am aware of the sequence of 
events.
    In the summer of 2001, there were, I believe, a total of 
seven samples that had exceeded the action level. I was advised 
by our then-water quality manager that she was reexamining, 
from a quality control standpoint, the conditions under which 
those samples had been taken, and had worked closely with the 
EPA staff contact to assure that her actions were appropriate, 
that they were aware of that. I can't say at high levels of 
EPA, but our EPA staff contact.
    And that time three samples had been invalidated based on--
in full compliance with the EPA rules.
    Mr. Van Hollen. Let me make sure I understand it, because 
my understanding from responses that we received from the EPA 
was that EPA did not invalidate.
    Mr. Marcotte. The invalidation would have taken place by 
our water quality manager based on the quality control review 
that she carried out.
    Mr. Van Hollen. I am trying to understand, because you got 
a result.
    Chairman Tom Davis. The gentleman's time is up. I will let 
you ask this last question.
    Mr. Van Hollen. Well, I am going to continue to pursue this 
in the next round, because it seems to me--what it looks like 
is you got a result that you didn't like because it took you 
over the trigger, and instead of living with the results and 
providing notices, and it would have triggered all of the 
requirements that we are talking about in terms of notices to 
people, instead of doing that, you decided to take a test 
again, and then you got the--all of the original tests showed 
one thing, you got another test that showed another.
    Anyway I don't hear really consistent responses here. And 
my understanding is EPA cannot invalidate the tests, and yet it 
sounds like some of the tests were invalidated with the 
concurrence of the EPA. If you could just respond to that, and 
I will leave it at that, Mr. Chairman.
    Mr. Welsh. And I just confirmed with my staff the 
information that I had before that we did not invalidate any 
samples. So if there is discrepancy there, we would be happy to 
look into it and give you further answers. But my answer is 
only EPA can invalidate the samples, and that we did not 
invalidate any samples.
    Chairman Tom Davis. So what happened then?
    Mr. Marcotte. My understanding is that our water quality 
manager invalidated those samples in a quality control mode 
after looking at the information and consulting with EPA.
    Chairman Tom Davis. What I would like to find out is who 
they consulted with at EPA. I don't think you are alleging that 
EPA gave permission. I think this is important because there is 
still a lot of suspicion. You have Ms. Norton's questions going 
to this, that somehow we could have been a year ahead of this, 
solving this problem, had we had appropriate notification a 
year earlier. It didn't happen.
    With the questioning that is going on, we would like to get 
that information. Can you get that information?
    Mr. Marcotte. We will endeavor to get that for you.
    Chairman Tom Davis. Who was your water quality personnel 
that was talking to EPA?
    Mr. Marcotte. At that time it was Seema Bhat.
    Chairman Tom Davis. Is he still with you?
    Mr. Marcotte. She is not.
    Chairman Tom Davis. She is not with you now? She was 
terminated, as I understand it, for talking to EPA?
    Mr. Marcotte. No, that is incorrect, but she was terminated 
from our employment in early 2003.
    Chairman Tom Davis. OK. We are going to probably want to 
get into this a little bit later. I don't know that this is an 
appropriate forum for that, but I would like to get some 
answers to that, because there is a discrepancy here that 
really goes to the heart of WASA's role in notification. I 
think that is what----
    Mr. Van Hollen. Mr. Chairman, I understand that under the 
procedure, in order to invalidate a test, it has to be done by 
the EPA, and it has to be done in writing. So there would have 
to be some record.
    Chairman Tom Davis. I think what he said in response to 
your question is that EPA didn't invalidate it, but they 
consulted, and they did it on their own. Is my understanding 
correct?
    Mr. Marcotte. Yes.
    Chairman Tom Davis. Which may or may not be legal, but we 
want to see if, in fact, Ms. Bhat, who is no longer there, did 
consult with anyone and who she consulted with and what 
actually transpired--I don't know the answer to that. But you 
can understand the concern here, and I think it goes to the 
heart of the whole issue in terms of how the notifications were 
conducted.
    Let me ask Mr. Jacobus, you testified that you didn't 
consider chloramines to have an adverse impact on corrosivity. 
But at the time that you began to use them, there just wasn't a 
lot of scientific knowledge on that. On what basis did you 
decide to use chloramines?
    Mr. Jacobus. When we converted to chloramine, we, of 
course--any treatment change has to be taken very carefully and 
in compliance with other EPA regulations and in consultation 
with our customers so that we know what the probable effects 
would be on the distribution system.
    Chloramine is a very commonly used disinfectant throughout 
the United States. Some places like Denver have used it since 
1917. Philadelphia has used it over 50 years. So it is a proven 
technique for reducing disinfection byproducts.
    Our chlorine-only treatment system could not meet the new 
80 parts per billion of total trihalomethanes rule that was 
coming into effect, so after an engineering analysis, we worked 
with consultants looking at the various alternatives. We 
started to design the chloramine facilities that would change 
the process.
    We were aware at that time of the science that indicated 
that the bacteriological activity could increase in the 
distribution system as a result of a chloramine change through 
a process called nitrification of--the chloramine molecule has 
nitrogen in it. Nitrogen is a food. So if you saw increased 
bacteriological activity, nitrification, and ammonia occurring 
in the distribution system, that could then lower the pH of the 
water.
    If I could just go back a moment and say that our corrosion 
control strategy was based, and is based still, on the pH of 
the water. We want the pH of the water to be as high as 
possible to reduce the corrosivity. So we knew if through the 
nitrification process it could occur, convert it to 
chloramines, the pH of the water went down, that could show--we 
could infer from that there could be increased corrosivity.
    So that was well known, and we prepared for that. We 
prepared for that by flushing the distribution system to get 
all of the debris and any biofilm out prior to conversion. I 
say ``we;'' we collectively with our customers in Arlington, 
Falls Church and the District of Columbia.
    And then when the conversion occurred on November 1, 2000, 
we had a contractor in place. And he looked specifically for--
on a consistent interval, over a 6-month period for evidence of 
nitrification. Since then we continue in our laboratory 
analysis to look for evidence of nitrification in the 
distribution system, and there has been no evidence of that. 
That was good news.
    The other good news was that as we looked at the pH 
throughout the distribution system, it did not depress for any 
reason, and so our conclusion from that was that the possible 
corrosive effects of the chloramine conversion did not occur 
through a nitrification mechanism.
    Any direct effect of chloramine on lead was not known to 
us. We were aware of scientific papers that had been written 
that looked at the corrosive effect on elastomers, plastic 
parts where your toilet may have some kind of effect as this 
newer water went through the plastic or the rubber pieces in 
your toilet. We knew that had been anecdotally reported and 
reported in the science, but we saw no evidence of that.
    So I think the answer to your question is that we made the 
decision based on the disinfection byproduct rule. That has 
worked very, very well. And we looked for and did not find a 
change in the pH, and therefore the corrosivity did not appear 
to change. We still don't know if it did change as a result of 
the conversion that has now increased the leeching that we are 
seeing in the lead services and in the fixtures, in solder 
joints and any fixtures in the homes.
    Chairman Tom Davis. Has the science changed on this over 
time?
    Mr. Jacobus. I think as in all cases, sir, the science is 
responding to issues, and we learn more and more as we go 
along. And while I cannot definitively say that there is a 
connection, if there is a connection, I think--I don't think, I 
know--we will contribute to that evolution of science through 
EPA. Our consultants, one of the panel members you have today 
is an expert in that area, and we are going to all work 
together.
    But I would like to repeat what I said in my opening 
remarks that we very strongly believe, based on our scientific 
consultants, that the chloramine can remain in place as the 
disinfectant to protect the public from the disinfection 
byproducts, and we can add additional corrosion inhibitors, 
change the chemistry of the water a little bit to overcome its 
current corrosivity, and as a result lower the lead 
concentrations that we are seeing in some of those samples 
being taken.
    Chairman Tom Davis. Let me just ask the Region 
Administrator, EPA Region III asked the D.C. Public Schools to 
comply with the Lead Contamination Control Act of 1988 to 
mandate--to test school water for lead, replace coolers that 
had lead-contaminated waste. Haven't you?
    Mr. Welsh. Yes.
    Chairman Tom Davis. You have done that. You are doing it 
now?
    Mr. Welsh. I understand the compliance with that rule was 
prior to this. That was a rule that required that they 
discontinue the use of those types of fixtures. So that is not 
specifically part of the lead and copper rule, it is a separate 
rule and was complied at a different point in time.
    Chairman Tom Davis. Are they in compliance now as far as 
you know?
    Mr. Welsh. It is not a compliance issue, sir.
    Chairman Tom Davis. OK. Has WASA violated any EPA national 
primary drinking water regulations for lead since its inception 
in 1996?
    Mr. Welsh. We are looking closely at the--complying with 
the public education issues. In our review, we have seen 
elements where they did, in fact, do parts of the public 
education that were required as stated. There were others 
that--where it was not exactly right or maybe not timely. But 
we are continuing to look at that issue.
    Chairman Tom Davis. Would the withdrawal of samples along 
Mr. Van Hollen's questioning potentially be a violation?
    Mr. Welsh. The invalidation of samples?
    Chairman Tom Davis. Yes.
    Mr. Welsh. Yes. My understanding is that only EPA can 
invalidate samples, and that we were not requested to 
invalidate.
    Chairman Tom Davis. So that could potentially be another 
violation?
    Mr. Welsh. Yes. That would be part of the review that we 
are doing. And given the interest and what I have heard, we 
will take a close look at that.
    Chairman Tom Davis. Thank you very much.
    Ms. Norton.
    Ms. Norton. I do have some substance of questions, but I 
will tell you, while you are fixing the science, assuming you 
can, what we have to be assured of is that the public will 
always have prompt notification.
    Now, I have already indicated that I have severe problems 
with how you notified people in their water bills. OK. EPA had 
yet another way to--for WASA to notify the public. And here is 
something very serious, I think. 40 CFR 141.85(b), it is 
entitled, Contents of Broadcast Materials. It concerns the 
public announcement that the water distributor is supposed to 
make in the event that we have higher lead levels than allowed, 
and it says: A water system shall include--shall include--the 
following information. Now, I am not going to read--I am going 
to just read the information that it says to include. It says, 
why should everyone want to know the facts about lead in 
drinking water? Then it says: Because unhealthy amounts of lead 
can enter the drinking water through da, da, da, da. Then it 
goes on to say in the second paragraph: To have your water 
tested for lead or to get, ``more information about this public 
health concern.''
    Now, let me tell you what WASA did. First of all, it 
rewrote the words entirely. Do you know why we put words in 
regulations? Because that is the best way to inform the public 
and to comply with the law is to use the words that are right 
in the regulations. There are a few regulations that say, do 
this. This says ``information'' this time. It doesn't say the 
exact words, and WASA apparently took advantage of that. But in 
taking advantage of it, WASA included the words ``unhealthy 
amounts of lead'' in the first paragraph, and in the second 
paragraph excluded the words ``more information about this 
public health concern.''
    Now, why should I believe that was not deliberate, taking 
out the very words in a public service announcement that give 
the best information to the public that you ought to do 
something because your health may be at risk? Why were those 
taken out, and why did EPA allow those words to be taken out?
    First WASA.
    Mr. Johnson. Ms. Norton, certainly as general manager of 
the Water and Sewer Authority, I have to assume full 
responsibility for anything--any activities that are undertaken 
by the Authority. I do not recall having personally read the 
notice when it went out, and I really cannot explain why that 
language was not included in that notice, assuming that was 
what went out.
    Ms. Norton. Well, EPA, that is why we have you watching--I 
hope we don't have the fox watching the chicken coop, but we 
have you watching to see whether WASA messes up. This is a 
clear mess-up. When you take out the words about health 
concerns, unhealthy, take out those words, it is hard for me to 
avoid the conclusion that you are doing so on purpose, because 
you left most of the other language, and when you rewrite it in 
the first place, I wonder what you are doing. But why didn't 
EPA catch it and call them on it?
    Mr. Welsh. It is consistent with my information that the 
PSA did omit some of the words, so that is one of the areas 
that has been identified where the action of WASA wasn't fully 
consistent with the regulation, and we do need to do a more 
aggressive job of following up on those. We are doing the full 
review of all of the elements to see and identify all of the 
areas where there may have been deficiencies. But that is 
consistent with the information I have that there were words 
omitted from the PSAs.
    Ms. Norton. Will you be looking at any notices in any water 
bills beforehand in the future so that we can be assured that 
at least this problem of notice to the public is cleared up?
    Mr. Welsh. Yes. We have already changed our oversight 
procedures. It is set up for us to review after the fact the 
report on the public education requirements, but certainly we 
are going to be more aggressive in trying to work up front and 
to have some more--not just the technical review--it is, of 
course, important that we do a technical review to see the 
words that are required are there--but in addition to that to 
make sure that we give the technical folks the help to be able 
to figure out whether not only are all of the words included, 
but whether this announcement is something that someone is 
likely to read or throw away.
    So we do want to do a much better job of earlier in the 
process identifying where there are deficiencies, so we can 
earlier require that those deficiencies be addressed.
    Ms. Norton. That is the least we are entitled to, we, the 
public, while you are trying to find out what the causes are.
    Mr. Welsh. I agree.
    Ms. Norton. Do you have something further to say, Mr. 
Johnson?
    Mr. Johnson. Yes, ma'am, Ms. Norton. It has just been 
called to my attention that one of the things that happens with 
public service announcements is typically we don't get very 
much response from the media in terms of running them.
    We did take it upon ourselves in October 2003--August 
2003--to send out a notice that does describe health effects, 
lead in water, how lead enters the drinking water, and steps to 
reduce exposure to lead in water, in addition to providing some 
general information in a mailing that was included with all of 
our customer bills.
    Ms. Norton. The operative words, Mr. Johnson, are 
unhealthy, unhealthy amounts of lead. The operative words are, 
more information, public health concern. And even in what you 
have read back to me, I don't hear the operative words. That is 
why only the commitment I have just had from Mr. Welsh that 
they will look at any notice you send out ahead of time can 
possibly satisfy our concern at this time.
    [The information referred to follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Tom Davis. Thank you.
    Mr. Moran.
    Mr. Moran. Thank you very much, Mr. Chairman. I want to 
followup, I guess, a little bit with Ms. Norton's line of 
questioning, because this may be our best opportunity to alert 
the public through the media on what the real health concerns 
are. I want do get a handle on that.
    Why do we say that 15 parts per billion is an actionable 
level? And also the pragmatics there, the practical effects of 
what you are telling people to do, I am almost--if I were a 
cynic, I would think that you all have stock in bottled water 
companies, because if you are telling people to run water for 
10 minutes, they are not going to do that. I am not going to do 
that. You are not going to do that. None of you are going to 
run your water for 10 minutes. Not only are you paying for it, 
but if you want to use the--if you want a drink of water, you 
are not going to wait for 10 minutes. Everyone is going to 
flock out and clear the shelves of bottled water if what you 
are telling us is that you are not supposed to use the water 
until you have run it through the faucet for 10 minutes. I 
thought it was for a few minutes--you know, a few seconds or 
something. God sakes, 10 minutes is a long time. And we are 
also told, at least in Arlington, that some of the water tested 
higher for lead after they had been running it through the 
faucet. So I am not sure that flushing out your system 
necessarily helps.
    I don't think we really have a handle on what we want to 
tell the public. And I don't fully understand, and I would like 
to--maybe we are going to get this from the next panel, but EPA 
must understand, while all of you are experts, how serious is 
this at this level? How dangerous is it to people's health? And 
you are telling--the guidelines say that once you have been 
beyond the level, you have 10 years, is what I read; you have 
10 years to fix the situation. Seems to me that the damage is 
going to be far more severe in the process of fixing it.
    Here, I am going to ask this question, because I was asked 
to ask it by Arlington County. Could you provide this committee 
with an answer with regard to a commitment by the 
administration that someone from the Centers for Disease 
Control is going to be available this afternoon to begin 
coordination with Virginia and the Arlington County Public 
Health Department to review the latest test results beginning 
early next week?
    In other words, we--what they want, Arlington County 
wants--is to get somebody from CDC in to tell us how bad this 
is, how serious this is, how should our people be reacting, and 
what could almost be called a paranoid way that they are 
reacting now.
    Mr. Welsh. On the CDC matter, I do know that we have had 
the assistance of personnel from CDC in dealing with the 
situation in the District. So we are certainly happy to request 
that they provide the same assistance to Arlington. They are 
not folks who report to me, so I would have to make the call to 
CDC and see if we can get that, but I don't see why that should 
be a problem.
    Mr. Moran. I think we need CDC in, and we need to know from 
the EPA what does it mean that if you got--what is 300 as a 
multiple of 15? 20 times. And many of them were 200 times 
higher, apparently, from newspaper articles. What does that 
mean to the health? I mean, how serious is that? Are you really 
going to give them 10 years to fix this, or how--what are you 
telling them in terms of timeframe and urgency?
    Mr. Welsh. There is extreme urgency.
    Mr. Moran. Extreme urgency?
    Mr. Welsh. In two areas. To make sure that the folks who 
can't--who have been advised not to drink the water are 
provided with alternate water or filters, then to work on the 
work that Mr. Jacobus was talking about as quickly as possible, 
to be able to identify the best way of handling the 
corrosivity, so that we see this problem discontinued.
    Mr. Moran. Is it serious enough that the government should 
be providing filter--the stores, I understand, have been bought 
out of filters. I mean, people are rushing to buy the filters 
from the stores, not to mention bottled water. Filters are 
expensive. Many people can't afford them.
    What role do we have? I mean, if this is as serious as it 
could be, maybe we have some responsibility to act in a more 
direct manner with these homes that we know are drinking what 
must be toxic levels of lead in the water.
    Mr. Welsh. We do have the authority--in a situation where 
we had to order alternate water to be provided, we have the 
authority to order that under the 1431. The obligation rests 
with the person that we are ordering, so that doesn't bring 
money with it. So in a situation where we have determined that 
we did need to require that, that is an authority that we have 
to do. It doesn't solve the issue of how they get paid for. So 
if that situation here or elsewhere was deemed to be necessary, 
we have the authority to order that.
    Mr. Moran. Has anything like this happened anyplace else in 
the country to this degree? I mean, is there any precedent for 
this?
    Mr. Grumbles. There is precedence; not to this degree, 
though, Congressman. There are instances----
    Mr. Moran. So this is the worst case that has ever happened 
in the country in terms of the level and length of exposure to 
lead through the drinking water; is that a fair statement?
    Mr. Grumbles. Staff is informing me that at Superfund sites 
there are lead contamination problems.
    Mr. Moran. Hazardous material sites? Well, yeah.
    Mr. Grumbles. From the perspective of the lead in the 
drinking water in the system, there are cities in the country 
that have exceeded action levels under the lead and----
    Mr. Moran. Sure. But an action level is 15 parts per 
billion.
    Mr. Grumbles. I personally am not aware. I don't know that 
staff is aware of a situation of this degree.
    Mr. Moran. So this is the worst that has ever happened in 
the country?
    Mr. Grumbles. Well, worst in terms of--from my perspective.
    Mr. Moran. Well, the level and length of exposure.
    Mr. Grumbles. In terms of the loss of confidence in the 
quality of the drinking water.
    Mr. Moran. I am wondering if we need to look at other 
precedents, or whether this sets a precedent and we need to 
take some innovative or original action.
    Chairman Tom Davis. Mr. Moran, let me just ask. The time is 
up, but if I can just dovetail onto that. Just focusing on 
EPA's emergency powers, are you actively considering invoking 
them in this situation?
    Mr. Welsh. I would say yes. We are working with the city to 
make sure that the things that we think are necessary to 
provide safe water to the residents are done, and we are fully 
prepared and ready to act if those things aren't happening.
    Chairman Tom Davis. Well, we've seen that the lead levels 
are potentially exceeding the--that they are exceedingly high 
and widespread, and this is obviously a very serious situation. 
So EPA is considering invoking its emergency powers?
    Mr. Welsh. Yes, based on our conversations with the city 
about the steps that are being taken to provide for the----
    Chairman Tom Davis. Any idea how quickly this could occur?
    Mr. Welsh. We would be ready immediately if we determined 
that the measures weren't being taken to provide safe water for 
the public health.
    Chairman Tom Davis. Are you close to determining that?
    Mr. Welsh. We've been working all week with the city to get 
that information and working--we are--those conversations have 
continued. So if we had information that we could feel assured 
that the--all the necessary steps are being taken, we might 
determine that we don't need to do it. If we were still 
uncertain that the necessary steps were being taken, we would 
be ready to do that immediately.
    Chairman Tom Davis. So it could--I mean, the conversation 
is, you're obviously not going to commit to it but it could 
happen any time basically?
    Mr. Welsh. Yes, sir.
    Chairman Tom Davis. OK. That's what I'm wondering.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you. Thank you, Mr. Chairman. I'd 
just like to pursue a little further the issue of corrosion 
control, and the role it may have played here and the role it 
could play elsewhere in the country. My understanding is, the 
Safe Drinking Water Act regulations put a premium, they put an 
emphasis on the question of providing corrosion control. Is 
that right?
    Mr. Grumbles. That's correct.
    Mr. Van Hollen. And I further understand that the corrosion 
control plan that EPA approved in February 2002 for the 
District of Columbia and its role of acting as a State 
essentially assumed the use of chlorine. Is that right?
    Mr. Welsh. I know that we approved the chlorine control 
plan. I'm not sure which plan--is it the----
    Mr. Van Hollen. I'm sorry. In February 2000, it assumed the 
use of chlorine. Is that right?
    Mr. Welsh. Yes. That's correct, sir.
    Mr. Van Hollen. Even though EPA, as I understand it, had 
been informed by the Corps shortly before that they did not 
intend to use chlorine, but intended to use chloramines in the 
water. Is that right?
    Mr. Welsh. It was in 2000 that the plan said that they 
would use chloramines rather than chlorine. So the chlorine had 
been approved, and then a plan to use chloramine was also--did 
we approve that? OK. We didn't have to approve that, but we 
consulted closely with them and agreed that seemed to be an 
appropriate treatment.
    Mr. Van Hollen. That's what I want to get at.
    As I understand it, the plan that you approved in 2000, 
February 2000, was based on the assumption that the Corps was 
using chlorine. Is that right?
    Mr. Welsh. Correct.
    Mr. Van Hollen. But in the end, the Corps changed its plan 
and decided that it was going to use chloramines, right?
    Mr. Welsh. Correct, and they did that in consultation with 
us and others.
    Mr. Van Hollen. So my question is, what additional studies, 
if any, did EPA do? What literature did it consult to determine 
whether or not the use of chloramines would not create a 
greater corrosion problem than the chlorine?
    Mr. Welsh. I know that there is a whole body of scientific 
knowledge that treats that question, and that body of knowledge 
was consulted.
    We also wanted to make sure that the Washington Aqueduct--
and they did--put in place a sampling plan to pick up 
indications that there would be a change in the corrosivity of 
the water and that those samples--they put in place a plan to 
do those samples and took those samples, and it did not 
indicate anything that caused us to take alarm.
    So we consulted the bodies of knowledge that there were 
about whether that would be effective, went through the 
complicated chemistry of trying to balance the--not trading one 
thing off for another. And in order to try to monitor for 
whether something--a tradeoff happened that turned out to be 
less than beneficial, we asked them to do sampling, and they 
were happy to do that sampling. So we put the steps in place 
that we thought would be able to indicate whether this was 
causing a problem. In fact, those samples for changes in 
corrosivity did not presage the problem that ultimately showed 
up, the lead in the tap.
    Mr. Van Hollen. OK. Let me ask you, one of the measures 
that's being taken now is the partial replacement of pipes, 
where WASA has been replacing the lead pipes up to the--I guess 
the part of the pipe that is under the owner's control.
    There has been some indication that, in fact, that could 
actually exacerbate the problem. Could you comment on that? I 
mean, there's some suggestion that when you take a copper pipe 
and you link it up with a lead pipe, although WASA can say, 
``we've done our part,'' in fact you could have left the 
homeowner in a worse situation. Could you respond to that?
    Mr. Marcotte. That is a very, very good question, Mr. Van 
Hollen, and we have a requirement, once we have cut that pipe 
and have done the reconnection on the public side, to test the 
water after 72 hours of service. And when you disturb that pipe 
and have done a number of things to it, it's possible that you 
can get elevated lead levels that are higher than what it was 
before you actually made the change. And certainly the person 
is left with as bad a problem as they had before you changed 
it, because they still have a section of lead pipe the water 
will rest in when it's not being used and then will pass into 
their household system.
    Mr. Van Hollen. Right. I'm concerned about this, because I 
know the regulations require that you either do this testing or 
replace the pipes, but it's kind of silly to go through the 
motions of partial replacement of pipe if it doesn't, No. 1, 
cure the whole problem or, in fact, may make it even worse.
    On a related issue, my understanding is that there has been 
raised the question of how EPA tests for water and the whole 
idea that the water that is first out of the tap may be more 
contaminated than later waters. There have been suggestions, in 
fact, and in DC apparently is the case, that after the water 
has been allowed to run a little more, it actually shows higher 
lead content.
    And so my question, I guess, for the EPA officials is, is 
that right and what are the implications for the testing 
protocols around the country with respect to lead?
    Mr. Welsh. We certainly--the best information is to get the 
whole profile of the first draw and throughout the subsequent 
periods, additional liters as you test through and get a whole 
profile of what is happening at the tap.
    Do you have specific information on protocol?
    Mr. Grumbles. No. I just want to say to the Congressman 
that the question is a good one. It's one that we're looking--
you know, from a national perspective, if we do have a testing 
protocol, does it need to be revised? We're more than willing 
and we've been talking over the last several hours about the 
benefits of getting some scientific groups, research 
foundations, to look at specifically, you know, has the science 
changed, what are the results, let's look at the testing 
protocols; and that's something that, from a national 
perspective, we're continuing to pursue.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    Chairman Tom Davis. OK. Thank you very much.
    I want to let the panel go, but I think Ms. Norton has a 
couple of questions for the record she wants to put in. Then 
I'll dismiss the panel. I appreciate your being here. We do 
have some followup to some of the questions that we've asked to 
try to get at.
    Ms. Norton.
    Ms. Norton. I would like to be clear, Mr. Jacobus. You did 
a complete corrosion control study when chlorine was in the 
water, but not a complete corrosion control study when 
chloramines were added to the water. Is that true?
    Mr. Jacobus. That is correct, ma'am.
    Ms. Norton. So this is real important, because the best 
hypothesis we have is that chloramines--you say no, you don't 
think chloramines are the problem, or at least you have 
testified that you didn't think there was corrosivity from 
chloramines. But we do have this before-and-after evidence that 
simply needs to be cleared up.
    And one way to have--when you're putting--you were trying 
to get rid of chlorine which may cause cancer in some 
circumstances. We may have had an indication that we were 
making the problem worse by trying to make it better, and one 
of the things we do to keep that from happening is simply to do 
the proper studies. And it seems to me, in hindsight, which 
should have been foresight, that if you're going to add an 
entirely new substance to the water people are going to drink, 
you ought to do a complete study, the corrosion control study. 
And I must ask you, are you doing such a study now, a complete 
corrosion control study so that we can know whether chloramines 
leach lead from pipes?
    Mr. Jacobus. Yes, ma'am. Just a second and I can tell you 
what we are doing.
    Ms. Norton. I just want to know, because the chairman wants 
me to move on. Are you doing the complete study that has not, 
until now, been done? You've been doing sampling. I want to 
know if you're doing the complete study.
    Mr. Jacobus. We have engaged the team and we've engaged 
consultants, and we have two sets of science experiments. One 
is working now under the control of the District of Columbia 
Water and Sewer Authority. The other is coming together through 
our consultants, and we will have both desktop, bench-type 
scale and full-scale analyses of the effects of the corrosion.
    And in addition, though, we anticipate incorporating into 
that analysis the addition of more chemicals that are currently 
not being used, corrosion inhibitors, which would be more 
strong, to reverse the effects of the corrosivity that we're 
seeing. So I can----
    Ms. Norton. At the very least, that should be done. We need 
to know, though, what is causing this problem so we can get rid 
of it.
    But, Mr. Welsh, we're going to ask you to make sure that 
this complete study is done. You say you consulted. Obviously, 
consultation was not enough.
    But very quickly, we talked about these filters. I 
understand that these filters, which first of all are only good 
up to 20,000 parts per billion, are only good for 2 months. 
Somebody is giving you the filters to distribute. Who is going 
to pay for the filters, particularly for people who can't 
afford filters, which are a whole lot of people in the District 
of Columbia, after you run out of donated filters? And are 
these filters good enough if they filter only up to 20,000 
parts per billion?
    Mr. Welsh. I'm sorry. I was just going to say that part of 
the subject of our discussion with D.C. is to make sure that 
the filters that are provided are ones that will adequately do 
the job. So we're carefully looking at that from the EPA's 
standpoint to see if we're satisfied that's the appropriate 
filter. Sorry to interrupt.
    Ms. Norton. Please don't come back here with filters that 
then we see lead levels far above what filters could have 
screened.
    Go ahead, Mr. Johnson.
    Mr. Johnson. Thank you, Ms. Norton. We have consulted with 
the Health Department and, I understand, EPA, in ensuring that 
we had NSF-certified filters that will remove lead, and the 
ones that we have acquired will remove lead from 180 parts per 
billion down to something below--or at the level of 
detectability, nondetectability.
    Ms. Norton. If it goes up to 180 parts per billion, that 
would be very good.
    Let me ask you this. In the testimony--this is a town, even 
with all the single-family homes, people rent. This is a 
renter's town. Now, Mr. Gerstell said in his testimony with all 
the qualifiers that we've gotten used to from all of you, as 
far as we know, apartment buildings and commercial office 
buildings are not generally affected since they do not usually 
have lead service lines; and until recently there were no--
there was no imminent reason to update even the information 
about the 23,000.
    Most of the people in the District of Columbia live in 
apartment buildings. By the way, they don't get their water 
bills. The water bills sometimes go to the owner of the 
building. Shouldn't they be informed some way or the other if 
you're in an apartment building about this problem, since 
there's nothing to make the owner go forward and inform people 
so that they can be on notice maybe to use bottled water or 
filters or something?
    Mr. Johnson. Yes, ma'am, and we have sent notices to all 
300 and some household--300,000-and-some households in the 
District of Columbia through a mass mailing which indicated 
literature through the District of Columbia Health Department, 
the Water and Sewer Authority and from EPA advising and 
providing those directions.
    Ms. Norton. One last notion. I can understand, Mr. Welsh, 
your reluctance to invoke your emergency powers. The District 
was under emergency powers beginning in 1993. It took them 
100--a couple of years, I'm sorry, to get off of it. And the 
reason I think that they were invoked against the District then 
was that WASA was on its knees. The District was so out of 
compliance that the only way you could make sure that the 
District would do what it was supposed to do was to invoke 
those powers. And I take it that one of the reasons that you 
don't want to invoke them now is because you see the District 
cooperating.
    Let me tell you what I think. If you're not going to use 
your emergency powers, it should be required--at the very 
least, given all the confusion that abounds, it seems to me 
that the District, all of the parties involved, the Health 
Department, WASA, all the parties involved--should be required 
to submit a coherent, written plan which would include the 
measures that are being taken to correct the problem, the 
measures that are being taken for notification of residents of 
the problem and the measures that are being taken to provide 
the necessary protection for residents, particularly those who 
cannot afford or are least likely to have notice that they 
should take measures themselves. I have in mind low-income, 
modest-income people, especially renters, the elderly and other 
vulnerable populations.
    I mean, that is just what occurs to me off the top of my 
head is the absence of something in writing that I think puts 
us all--that is coherent, that involves everyone, that makes us 
all uneasy.
    Mr. Welsh.
    Mr. Welsh. I would say we're not reluctant to use those 
authorities. We want to make sure we use those appropriately, 
and we're looking closely at the actions that are being taken 
by others and we----
    Ms. Norton. If you're not reluctant to use them, why 
haven't you used them? We can't imagine a worse crisis than 
this.
    Mr. Welsh. I understand, and we are working to make sure 
that the steps, much like are being described, are taking 
place--are being taken; and that we can see the actual plans 
and that those plans are being implemented. So those are the 
things that we have been working with the city on in the past 
several days.
    And in addition, on the issue of corrosivity, we do have a 
plan that sounds like what you describe that will be released 
Wednesday. The technical working group is going to give its 
first recommendations as to how best to move forward on 
addressing the issue of corrosivity. So I understand your 
advice, and we will certainly use that as we look very closely 
at the situation to determine what the appropriate step is.
    Ms. Norton. Thank you, Mr. Welsh.
    Mr. Chairman, could I ask for certain records to be 
submitted for the record.
    Chairman Tom Davis. Yes.
    Ms. Norton. Could I ask all three of you to commit to 
submit for our records all of the records of lead results that 
EPA received for the District, beginning with 1991, all the 
records documenting EPA's review of the Corps' control--
corrosion control plan, the records evaluating D.C.'s 
distribution system survey?
    I'd like to have that commitment from all of you. Do I have 
that commitment from all of you?
    Chairman Tom Davis. Do you have a problem with that, Mr. 
Welsh?
    Mr. Welsh. No, I have no problem.
    Chairman Tom Davis. Thank you very much.
    I want to thank this panel. I know it has been a long 
morning for you. The committee will take a 2-minute break while 
we bring the next panel up to the front and change the name 
tags.
    [Followup questions and responses follow:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    [Recess.]
    Chairman Tom Davis. The committee will come back into 
order. We have our second panel now, some of our science 
experts.
    We have Erik Olson, senior attorney, the Natural Resources 
Defense Council; Professor Ellen Silbergeld, who is from the 
Johns Hopkins Bloomberg School of Public Health; and Professor 
Marc Edwards, Virginia Polytechnic Institute and State 
University.
    If you'll rise with me and raise your hands, I'll swear you 
in.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you. I think the questioning here 
will be a little easier than it was on the last panel, but we 
really are excited about your testimony here. I've read it 
coming in here today. I think it adds a lot to the scientific 
basis on this, and I just appreciate your bearing with us 
through the first panel.
    Mr. Olson, why don't we start with you and move straight 
down. You know the rules of trying to keep it within 5 minutes. 
Your entire statement is in the record. Thanks for being with 
us.

 STATEMENTS OF ERIK OLSON, SENIOR ATTORNEY, NATURAL RESOURCES 
   DEFENSE COUNCIL; PROFESSOR ELLEN SILBERGELD, JOHN HOPKINS 
BLOOMBERG SCHOOL OF PUBLIC HEALTH; AND PROFESSOR MARC EDWARDS, 
      VIRGINIA POLYTECHNIC INSTITUTE AND STATE UNIVERSITY

    Mr. Olson. Can you hear me? I am Erik Olson. I'm a senior 
attorney with the Natural Resources Defense Council. I'm glad 
that the committee is holding this hearing and thank the 
chairman for scheduling this important discussion.
    First, I want to say that the lead crisis in D.C. really is 
a wake-up call nationally. We don't think that this is just a 
problem in Washington. We believe that although we know about 
the extent of the problem only in D.C., there are probably 
other locations where there are serious issues.
    We ought to have the best water quality, the best drinking 
water system in the world here in the Nation's Capital, and 
instead we have one of the worst in the Nation, as we just 
heard from previous witnesses. This is a serious public health 
issue, which Dr. Silbergeld, I believe, will discuss, but I 
think what I want to focus on are the serious flaws that this 
whole process lays bare with EPA, with WASA and with the Army 
Corps.
    First of all, there are clear holes in EPA's rules, as have 
been identified in the previous questioning. What wasn't 
discussed in detail is the fact that the rules that govern what 
can go into our faucets and fixtures seem to have a problem. We 
are still, it appears, installing some fixtures, faucets and so 
on that still leach lead. That is an issue that needs to be 
addressed and discussed. In addition, the lack of knowledge, 
testing and enforcement of the school testing requirements of 
the Lead Contamination Control Act are very troubling, and we 
are extremely troubled by the lack of enforcement of that.
    The EPA oversight obviously, as the previous panel has 
shown, was inadequate, and I don't think it's worth going into 
a lot of detail, but we think it is absolutely incumbent upon 
EPA to use its enforcement authority, its 1431 emergency 
authority in this case. If you can't do it in this case, where 
EPA witnesses admitted that this is the worst they know about 
in the country, when in the world are you going to use this 
authority? This is why the authority was written into the law 
by Congress.
    In addition, we think it's important to note that--take a 
look at the trend in EPA enforcement in this program over the 
last 3 years; it has been steadily declining over the last 3 
years. We attached to our testimony every measurement of 
enforcement of this drinking water act over the last 3 years. 
It's been dropping step-wise. It's very concerning, and we 
think, again, this tells of a national problem.
    With respect to the D.C. WASA, it's absolutely critical 
that this invalidation of samples issue be evaluated. And also, 
with respect to these filters, the filters that are being 
offered are simply pitchers that people can put on their 
kitchen counter, but these filters are not going to be a long-
term solution. First of all, they expire after a month or two. 
EPA has regulations for a point-of-use device like this. Is EPA 
going to insist that those regulations be tracked?
    For example, what happens after 2 months in a day care 
center that has high levels of lead? Are there going to be 
automatic maintenance and followup on these? Are they going to 
wait until Brita donates additional filters? We think it's 
incumbent upon EPA to mandate in its enforcement orders that 
WASA install these filters professionally instead of using 
these pitchers and also that there be followup.
    In addition, with respect to the school testing in the 
District, it was completely bogus. They tested 150 schools, 750 
taps, but they ran the water for 10 minutes before they tested 
them. It's clear that was intended not to find a problem, and 
they are refusing to retest. Why is that? We think they are not 
retesting the schools and day care centers because they suspect 
there might be a problem.
    I think it's important for this body to insist upon WASA 
retesting the schools in the District, and we think that ought 
to be expanded to everywhere that the Corps of Engineers water 
goes.
    Finally, with respect to the Corps of Engineers, it's 
important that the corrosion control and the old-fashioned 
treatment that the Corps still uses--which is World War I-era 
treatment, I want to emphasize; they are not using modern 
treatment. If you got to modern treatment, we could largely 
solve this problem.
    It's key that this body fund response in D.C., as 
necessary, that there be aggressive oversight of EPA, that 
there be water infrastructure funding and that this entire 
process be opened up.
    We are very concerned that all of these discussions that 
we've heard about this morning are all cutting the public out 
in violation of open government laws in the District. None of 
these meetings that are being held are--of the advisory groups 
that are discussing this are being opened to the public. So we 
are very concerned about the lack of openness.
    And finally, with regard to the emergency enforcement 
action, it's just absolutely key that action be aggressive and 
across the board and not just a short-term fix. Thank you.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Olson follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Tom Davis. Doctor, thank you for being here.
    Dr. Silbergeld. Thank you very much. I'm Ellen Silbergeld 
and I'm pleased to respond to your invitation to participate in 
this hearing. I'm testifying at your invitation as a private 
citizen. For identification purposes only, I'm professor of 
environmental health sciences and of epidemiology at the 
Bloomberg School of Public Health of Johns Hopkins University. 
I also served as a member of EPA's Science Advisory Board 
Committee several years ago, evaluating the scientific basis 
for EPA's current regulations concerning lead in drinking 
water.
    As I noted, I live in a city that last year had its own 
problems with lead in drinking water, although I hesitate to 
mention them in the context of what we've heard today. But I 
would like to endorse the statement by several members of this 
committee and other witnesses that this is a problem unlikely 
to be confined to this setting and that a national 
investigation, perhaps with the research resources of the 
Congress, should be undertaken.
    In my testimony, I'd like to provide answers to your 
questions concerning the health risks of lead poisoning on 
which I can claim expertise and make some comments in response 
to your other questions.
    As has been noted in response to your first question, lead 
is an entirely toxic metal and its hazards have been described 
in medical writings for over 2,000 years. As long ago as 250 
years ago, questions were raised about the potential 
contribution of lead in drinking water to health, both in 
England and in colonial America.
    It's now the overwhelming consensus of both medical and 
public health experts that lead is highly toxic to multiple 
organ systems, including the central and peripheral nervous 
systems, the cardiovascular system, blood-forming system, the 
kidney and the reproductive systems of both males and females.
    We understand that at the molecular level, lead can 
substitute for calcium and other essential elements to 
interfere with molecular biology of the cell at the level of 
DNA integrity, intra- and intercellular signaling, 
differentiation and development of complex systems like the 
nervous and reproductive systems, synaptic formation and memory 
storage in the brain, and vascular endothelial function.
    Lead is toxic to the fetus, and it is carcinogenic. In 
public health policy, we do correctly focus upon preventing 
exposures of the developing child pre- and postnatally because 
of its effects on the developing brain, which have now been 
shown to persist through at least early adulthood. But I do 
want to stress, because of some of the comments earlier, that 
lead exposures are also highly toxic to adults, increasing 
risks of stroke and hypertension, as well as the risks of early 
mortality due to cardiovascular disease and cancer. I have 
annotated my testimony for you.
    These risks, in fact, are particularly important for women, 
since there is evidence that later in life bone lead stores may 
be mobilized back into blood, particularly over the menopause, 
with associated increase in risk of clinical hypertension and 
elevated blood pressure. I, therefore, find it particularly 
disturbing to have heard that there were some attempts made to 
inform pregnant women and families with young children while 
allowing others in the population to continue to be exposed 
without warning.
    The toxic effects of lead, finally, can only be prevented 
by preventing exposure. We know this because a large multisite 
study was funded by NIH, including some of my colleagues, and 
it reported conclusively that treating children after exposure 
does not reverse lead toxic effects on neurocognitive function.
    I also want to note that more recent studies suggest that 
our work and concerns over lead are not over, that the toxic 
effects on children and adults may occur even at the blood lead 
levels that are currently accepted in regulation and public 
health. It's therefore in this context that we should consider 
the current issues of lead in drinking water. This source adds 
on to all other sources of lead in the environment, and it is 
really very confusing to try and cite other sources as a means 
of deflecting concern over any one source. It is true that it's 
currently estimated by EPA that 20 percent of total daily 
exposures to most U.S. populations come from drinking water, 
but that's assuming that the current drinking water standards 
are, in fact, being met.
    Lead exposure via drinking water alone can by itself be 
sufficient to induce toxicity, especially in young infants. In 
a landmark paper in 1967 it was determined that a cluster of 
mentally retarded children in Glasgow had been poisoned by lead 
in drinking water due to its storage in lead-lined tanks. Cases 
of individual infants poisoned by drinking water with lead 
concentrations well within the range reported for the District 
of Columbia, that is 50 to 150 parts per billion, have also 
been repeatedly reported.
    This is the basis of my concern, members of this panel, 
that the WASA data are still not revealing sufficient 
information of great importance to consumers and probably also 
to the D.C. Health Department. That is, by providing its survey 
data, which was the last I saw reported, in only three 
categories, below 15 parts per billion, 15 up to 300 parts per 
billion and greater than 300 parts per billion, consumers are 
not receiving the information they need to know, nor are public 
health authorities.
    You've heard that the Safe Drinking Water Act was amended 
to cover the national problem of lead in drinking water as it 
was increasingly recognized in the 1980's. I'd like to respond 
to your query to me as to whether the current lead program is 
effective as a public health measure. My answer is no. There 
are, within regulation, bans on lead solder and lead 
adulterated brass fixtures, among other elements, which have 
been largely effective at keeping new lead sources out of our 
water systems, but I think that further investigation is 
needed.
    I myself have seen lead solder still on sale this year in 
hardware stores in Baltimore, and you may know that the city of 
Los Angeles has brought a major lawsuit against a supplier for 
using banned products in the municipal water system. I cite the 
study conducted by Berkowitz in 1995 showing that a large 
number of schools and day care centers in New Jersey were found 
to be continuing to use lead solder in their plumbing after 
EPA's promulgation of the ban on new use.
    The effectiveness of water treatment as a means of dealing 
with lead in water, as I believe Dr. Edwards will speak to, and 
the public notification programs have a much less encouraging 
record.
    The Safe Drinking Water Act and its regulations of the 
1980's and 1990's have required actions to be taken when the 
lead guidance was exceeded, but in my opinion and in the 
opinion of my colleagues on the SAB panel, too much reliance 
was placed upon controlling simply by adjusting the parameters 
of water treatment. We were under a tremendous amount of 
pressure from both EPA and the water industry not to take a 
firmer stand upon identifying and removing lead elements within 
drinking water systems.
    I'd also like to note that the sampling systems that are 
currently regulated under these provisions are wholly 
inadequate to characterize the nature and distribution of the 
risks of a problem that is location-dependent. The possibility 
of missing even widespread so-called ``hot spots'' is 
exemplified by the data that are beginning to be revealed in 
Washington, DC. For that reason, I am reluctant to conclude as 
to the association between temporal trends in water treatment 
and apparent spikes in lead content of drinking water. I'm not 
certain these are spikes.
    Let me speak to the other tool in the Safe Drinking Water 
Act lead regulation of public notification and risk 
communication. Does this work? Well, obviously it cannot work 
if communication is insufficient, but consumer information can 
only work if consumers can actually and feasibly reduce their 
risks by individual actions, and I do not think that is the 
case.
    As you've heard, even extensive flushing for over 15 
minutes--and I share the opinion of Congressman Moran on that--
does not always reduce the contribution of lead from lead 
pipes, but of even greater concern, the lowering effects of 
flushing are only temporary. Lead levels rise again, it's been 
shown in studies, after as little as 15 to 30 minutes of no 
use.
    Therefore, the notion that you can wake up in the morning, 
let the water run for 10 minutes, assuming that you can, and 
that will then protect all water users for the rest of the day 
is erroneous. In fact, one study concluded that relying upon 
this could result in unacceptable exposures to both young 
children and pregnant women when water lead concentrations are 
in the range of 35 to 50 parts per billion.
    For the D.C. Health Department to go even further to 
recommend no consumption of tap water to thousands of D.C. 
residents is unconscionable. I have to say it reminds me that 
Marie Antoinette must be running public health here, ``Let them 
drink Evian.'' Given the general socioeconomics of lead risks, 
it's likely that most of those at greatest risk will have the 
least means to purchase their own water, and of course, not all 
bottled water is devoid of lead risks as well.
    In conclusion, Mr. Chairman, in my opinion, the issue of 
lead in the D.C. water supply is a serious and immediate public 
health problem for adults and children who consume, reside or 
work in D.C. Moreover, it is probably a signal of similar 
problems that exist in many other water systems nationwide.
    And finally, elements of the Safe Drinking Water Act are 
demonstrably ineffective in protecting our drinking water from 
lead. Lack of full enforcement on product bans appears to be 
widespread. Local testing and notification programs, even in 
the letter of the regulation, are inadequate, and they are 
clearly not being monitored by EPA. And reliance upon even 
perfect information transmission and consumer action such as 
flushing is not sufficient to protect the public's health.
    I'm happy to answer your questions on this testimony or 
other topics that I may be able to discuss.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Dr. Silbergeld follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Tom Davis. Dr. Edwards.
    Mr. Edwards. Thank you. I chose to support my verbal 
comments with a presentation.
    Chairman Tom Davis. That would be fine. Make sure your 
button is on. I don't hear it.
    Mr. Edwards. Yeah. I've chosen to support my verbal 
comments with a picture presentation that will be viewed on the 
monitor here, and it's been given to you in this handout form.
    While it's being cued up, I'd like to acknowledge the work 
of my graduate student who has been working on this problem as 
it exists in the D.C. WASA system full-time almost for a year 
now.
    It's my unfortunate duty to tell you that there's not just 
one serious corrosion problem here that is impacting public 
health, there are actually two. We can look at the first slide 
here. You can see the picture of a copper pipe, what was once a 
copper pipe before it was exposed to D.C. WASA water. The 
clamps on that pipe are each covering a leak that was being 
eaten from the pipe inside out.
    Can I have the next slide, please?
    I just want to point out that not only does this cost a lot 
of money, as you can see in this slide, it causes extensive 
property damage. I know some people in the Washington area who 
lost their homes over the costs associated with pinhole leaks, 
but pinhole leaks also create the toxic mold growth in homes. 
So this is a public health issue.
    Next slide, please.
    This background is important because it tells you how I 
first got involved in this problem. I actually met Seema Bhat, 
who was the water quality engineer who was subsequently fired 
by D.C. WASA, at a pinhole leaks meeting held at Washington 
Suburban Sanitation Commission in September 2002.
    Next slide, please.
    At that time, she alerted me to a problem with ``first 
draw'' samples, and so when I went out and sampled on my own 
initiative on March 16, 2003 in the homes of D.C. WASA 
customers. I made a special effort to try to take samples for 
lead based on what Seema had told me, and it was at that time I 
first became aware of a very unusual and, frankly, terrifying 
problem.
    Next slide, please.
    I drew a little cartoon here to kind of explain what had 
been going on in terms of sampling prior to March 2003. You can 
see on the upper left the first draw sample, and you'll hear a 
lot about that. That's the first liter of water to come out of 
people's plumbing. And the presumption was, if you read EPA 
guidelines, was that this was the worst sample. Another sample 
was taken after 5 minutes of flushing, and if you look over to 
the far right of the graphic, you can see that in all 
likelihood after 5 minutes, the water you collect in your 
sample has been sitting in the main. It never had time to 
contact the lead-bearing materials that are of greatest 
interest in this work.
    So if we just make a plot of what you'd expect to see as 
you turn on the faucet on the lower graph, you have your first 
draw sample, which everyone thought was the worst sample. Five 
minutes later, the other samples they took were purported to 
show the benefits of flushing. But I'll point out we really 
don't have a clue what was coming out at any time in between, 
including the 1-minute flush time that was being recommended. 
The people flushed for a minute and collected a sample.
    So I resolved when I went into these homes to go in and 
collect a profile. And what you see is on this next graph here, 
what I discovered, on the Y axis you have the amount of lead 
that was collected in each sample, and on the X axis, the 
bottom, you have the flushing time of the sample. And I ask you 
to just look at one point, which is the sample that came out 
which I collected after 1 minute of flushing. This sample had 
lead over 1,250 parts per billion, which is more than 87 times 
the action limit. I noted in my written testimony that the 
actual lead in that sample was probably higher than that, 
because even after a 1 to 10 dilution, it was still off the 
ability of my field instrument to detect it.
    I'll note also that this is the very sample that would be 
consumed after you followed the 1-minute flushing 
recommendation. In other words, of the samples I collected, if 
you followed guidance, you would be getting the worst amount of 
lead possible in this home.
    I'll tell you two other things that should be of concern to 
you at this time. This home did not have a lead service 
lateral. It was an apartment.
    The next slide, please.
    So from April 2003 to present, I have been working with my 
students on this very intensively, conducting unfunded research 
to get at the causes of this problem.
    Next slide, please.
    This is the sort of result that we obtained back in 
September of last year. On the Y axis you have the amount of 
lead leached to our laboratory solutions in milligrams per 
liter. And I have two bars here. The first is the before bar--
and this is from brass, by the way. This is not from pure lead 
pipe. The before bar represents the amount leached to a 
synthesized version of WASA water with free chlorine. You can 
see that bar is quite low, and when we used the exact same WASA 
water, but with chloramine, the amount of lead leach went up by 
a factor of 33, up to 15 milligrams per liter leached to the 
water from brass.
    We have other data, which is not on that presentation but 
which is the next slide here--so don't go ahead on the slide--
that shows chloramines have the same direct problem with pure 
lead as well. So we have proven this in the laboratory and 
those experiments were finished about 6 months ago, as a matter 
of fact.
    From November 2003 to the present, I have been working and 
working and working to get that 1-minute flushing 
recommendation changed. I strongly believe that 1-minute 
flushing recommendation was not sufficiently protective of 
public health.
    Next slide.
    So, having been given a background, I thought--I went to 
the questions that were posed to me directly. What did I find?
    First, I found in terms of WASA and EPA, the intent of a 
lead and cooper regulation is not always being satisfied due to 
regulatory gaps, as explained in my written testimony. The 
reality is WASA and EPA are myopically focusing on the letter 
of the recommendation, and that is an important distinction 
here. The intent of this regulation is not being achieved.
    I've also noted that other regulations at EPA are being 
given priority over the lead regulation. Specifically, 
regulations concerning disinfection byproducts are forcing 
utilities to make changes to their water quality, and many 
times they don't want to switch to chloramines. And EPA has 
ignored years of warnings that these changes are going to cause 
a problem with home plumbing.
    Next slide.
    So this is just an example of a presentation that I gave to 
EPA National Headquarters, April 18, 2003. This presentation 
was held at the direct behest of Christine Todd Whitman. And 
Washington Suburban Sanitation Commission had been seeing 
serious problems with home plumbing that had resulted from 
treatment changes. And if you just go to the slide that you see 
up here--which you have to skip ahead one--I'll just read a 
quote from that presentation explaining the cost of doing 
nothing: ``if nothing is done, there's a likelihood of a major 
plumbing catastrophe costing homeowners tens of billions of 
dollars each year. It could be a serious miscalculation to 
assume a day of reckoning is not already approaching.''
    I've been told by students that I'm an effective 
communicator. I've been told by consumers that I'm an effective 
communicator, but I can tell you this message got nowhere with 
the U.S. EPA.
    Next slide.
    Do you think that the use of chloramines has a highly 
corrosive effect on service lines and allows lead to dissolve 
from the pipelines? Absolutely yes. Our laboratory experiments 
prove that convincingly. Chloramines are part of the problem, a 
part of the problem as it occurs here at D.C. WASA.
    What, if anything, should be done? First off, EPA should 
reconsider rules that are, as we speak, pushing utilities to 
use chloramine. Utilities should be allowed to stick with 
chlorine. It is possible that by lowering the pH here in dosing 
of orthophosphate that the lead problem will go away. But I'm 
here to tell you, and in my written testimony I make it very 
clear, EPA does not have the answers to this problem as it 
exists before us. And we urgently need some research on this so 
that consumers get the answers to the questions that they have.
    And so I'll just acknowledge the D.C. WASA customers, the 
customers who have let me into their homes to uncover these 
problems, the National Science Foundation, my graduate 
students, and my family who have been through one very, very 
long year. Thank you.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Edwards follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Tom Davis. We're trying to figure what it would 
cost to do a reasonable study because we need defined science 
on this, right? And so I think you've identified some problems, 
and nobody has any answers. Will $200,000, that get you started 
on something like this?
    Mr. Edwards. Yeah. If you wanted answers to this one issue, 
chloramines and lead----
    Chairman Tom Davis. It's a national issue, right?
    Mr. Edwards. Absolutely. $350,000. The program that I 
proposed to EPA back in April 2003 addressed the most urgent 
issues that were currently confronting us, and the total price 
tag for that was $7 million. And if you want a copy of that 
presentation, I can show you the----
    Chairman Tom Davis. Can share that with us?
    Mr. Edwards. The costs of this are billions and billions of 
dollars a year to consumers.
    Chairman Tom Davis. I can take a look at what it's just 
going to cost the city of Washington now and everybody to go 
through this. I guess the old saying is, ``You can pay me now, 
you can pay me later.''
    Mr. Edwards. Absolutely.
    Chairman Tom Davis. Why is it worse after 1 minute? That's 
what I want to know.
    Mr. Edwards. It has to do with the fact that is where the 
water is sitting in the lead pipes that are--plumbing materials 
that have the worst lead. So out by the service main, you have 
your lead service lines. You also have a type of brass known as 
NSF Section 8 Tested Brass, and this brass can contain up to 8 
percent lead by weight, even though it's listed as lead-free in 
the Safe Drinking Water Act.
    So at this 1-minute time, what you're really getting is the 
water that's been contacting the plumbing materials that have 
the worst lead in the D.C. system.
    Chairman Tom Davis. OK. That's very revealing.
    Mr. Olson, let me ask you. EPA needs additional authority 
to plug these loopholes, don't they? Or do they have them now?
    Mr. Olson. I think EPA has the authority they need to plug 
these loopholes. It's a question of whether they're willing to 
use the authority they have. For the emergency order, they 
could issue it today. For the change in the regulations, they 
would need to do that themselves.
    The only problem with their current authority I think is 
the Lead Contamination Control Act, which goes to the schools-
testing issue. Part of it was overturned by a court in the 
Acorn decision. It was ruled as unconstitutional, because it 
directly imposed requirements on States. Rather than saying, 
``We're going to withdraw your funding if you don't do this 
testing,'' it directly imposed the requirements on States. So 
that provision probably needs to be changed. It clearly needs 
to be changed.
    Chairman Tom Davis. If you could pinpoint, though, for a 
national water infrastructure problem that you've highlighted, 
what legislative measures would you propose that you think make 
sense that don't go off the charts in costs? I mean, there is a 
cost-benefit factor.
    Mr. Olson. Well, the first step is clearly there is a need 
to address what I just mentioned, the schools issue. Second, we 
think that there is a need for water infrastructure funding. 
The funding that--there have been repeated studies by EPA and 
cities showing that the amount of funding that's available is 
inadequate to deal with the problem. So I think either 
appropriations or water infrastructure legislation would be 
necessary.
    And finally, the whole issue of lead-free plumbing. We just 
heard that things defined as lead-free under Federal law are 
far from lead-free, and that needs to be changed as well.
    Chairman Tom Davis. You were critical of the Corps of 
Engineers' decision to switch to chloramines to combat 
disinfection by products. How are these decisions by water 
suppliers regulated by EPA? Are there additional mechanisms and 
technical standards that you'd----
    Mr. Olson. Let me clarify. We do not oppose the use of 
chloramines. We think it's a Band-Aid, though. It doesn't go to 
the underlying problem, which is old-fashioned treatment. So 
there are EPA regulations that do regulate how much of these 
disinfection byproducts there are.
    Our concern is that we have D.C. and a lot of other cities 
across the country that continue to use this outdated, really 
antiquated treatment technology that needs to be upgraded.
    Chairman Tom Davis. Dr. Silbergeld, let me ask you, do you 
think that the lead action level of 15 parts per billion is 
appropriate?
    Ms. Silbergeld. Probably basically it is not, but certainly 
those of us in public health would rest a lot easier if we 
actually achieved that.
    Chairman Tom Davis. How can we identify and treat those 
that are affected by lead exposure?
    Ms. Silbergeld. Well, since it seems very difficult to get 
a comprehensive and accurate assessment of drinking water 
supplies, and, as Dr. Edwards has pointed out, even the way in 
which we measure the actual exposures of residents over a day 
is not a simple matter, probably our best bet is to combine an 
emergency blood lead surveillance program similar to what EPA 
has done, for example, in smaller communities; but not 
necessarily to stay at that point, because blood lead only 
reflects relatively recent exposures. And, thus, for a family 
that perhaps may have stopped drinking water 6 months ago, this 
would not necessarily indicate that they had no risks. So, a 
very intensive surveillance.
    Chairman Tom Davis. I'm trying to understand, does one 
glass of water go to affect you in a situation like this, or is 
it over a month, 2 months? I guess it all depends on what the 
levels are. I mean, what's been your experience in looking at 
that?
    Ms. Silbergeld. Well, it can be a very short period of 
time. For example, in the reports from the Harvard Medical 
School, for example, of cases of infants poisoned by lead from 
drinking water when the parents were mixing formula with 
drinking water, their actual toxic symptoms were induced after 
only a few months of exposure.
    Chairman Tom Davis. Thank you very much.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. Could I ask, many 
people are switching to bottled water. Is bottled water any 
better? Does it not have these problems?
    Ms. Silbergeld. Well, certainly in general there have been 
problems identified with bottled water, because the regulation 
of bottled water by FDA is certainly not complete. I would find 
it hard to believe that bottled water would have levels of lead 
as high as what's been reported in the newspaper.
    Mr. Edwards. I'll second that.
    Mr. Moran. Would the gentlelady yield for just a moment? I 
heard this week that Dasani, which Coca-Cola bottling puts out, 
is actually London tap water. Is that true? There was a report 
in the London papers.
    Mr. Olson. I can report we did a report a couple of years 
ago looking at bottled water quality. We tested over 1,000 
bottles. We also tested over 100 brands. Much of the bottled 
water in the U.S. is tap water. Some of it has been treated. So 
much of it has not. About 20 percent, was our estimate, is tap 
water.
    In addition, we found no lead in all the tests that we did, 
no significant lead. We did find arsenic. We found bacteria. We 
found a variety of organic chemicals. Most of it was not a 
violation of the weak Federal rules, but there really isn't 
much of a Federal regulatory program for bottled water. FDA 
told us they had a single person regulating bottled water for 
the country at the time.
    Ms. Silbergeld. I would also like to speak to this issue of 
the filters. The filters, as has been noted, have a relatively 
short period of efficacy, but they also have a limited 
efficacy. When you have concentrations of lead in water above 
200-300 parts per billion and much higher, no filter is going 
to remove that much lead so that I also find it rather 
disturbing to have the Health Department distributing these 
filters as some kind of suggestion that then all the water in 
the District would be safe to drink.
    Ms. Norton. Dr. Silbergeld, the problem I have is that 
while these agencies are figuring it out, something has to be 
done. And there are probably a limited number of options. Ever 
since the water scare in 1993, I've simply been buying water. I 
mean, they lost my confidence. Obviously, that's a very middle-
class thing to do. What is it that the average person should be 
doing now?
    Mr. Edwards. There's no doubt that the filters would 
dramatically reduce the amount of lead in water. In those two 
samples that were reported in the Post yesterday, over 40,000 
micrograms per liter of lead, it is true that filter would not 
produce a water currently classified as safe under EPA 
regulations. That sample is a--it's very much the exception and 
not the rule.
    For the vast majority of the samples that I have seen and 
that I have taken myself, Brita filters, other kinds of 
filters, would do a very satisfactory job in getting the lead 
out, but it's not, as she said, fool-proof.
    Ms. Norton. Well, would one thing to do, then, be with 
respect to adults where, according to Dr. Silbergeld's 
testimony there are significant risks, one might advise the 
filters--with respect to pregnant women and children under 6, 
would bottled water be more advisable than using filters? I 
mean, there's at least two or three classes of people that we 
have to deal with in the meantime while we're trying to figure 
out what to do.
    Ms. Silbergeld. Well, the public health perspective on 
drinking water in this country from the very beginning has been 
that all water should be safe and healthful to drink, and that 
is why we have never permitted a dual system of water supply 
which, of course, has been in use in other countries where 
there's potable and nonpotable water. I'm very reluctant to 
endorse as a public health matter the idea of multiple sources 
of drinking water and have any assurance that would protect the 
public.
    I must also say that I am not enthusiastic about the idea 
that one can eliminate the lead risks for nonpregnant women and 
other adults. Our paper, published in the Journal of the 
American Medical Association, found significant risks of 
clinical hypertension when blood lead levels went from 10 to 15 
in adult women, not pregnant women, and this was the blood 
pressure of the women themselves.
    I could not in good conscience tell you that it would be 
appropriate to allow anyone in the District of Columbia to be 
exposed to some of these levels.
    I'd also like to point out that if these filters----
    Ms. Norton. But I have to stop you here. I really do have 
to stop you here, because we live in this world at this time 
and we have a population of 600,000 people that we have to deal 
with. And people look to public health experts not to give them 
the perfect solution, particularly when there is no perfect 
solution in sight, but to help us find at least--give some 
advice to the people who live here. So I'm not asking people to 
guarantee or warrant a solution here, but in the meantime we 
would appreciate your best advice.
    I think the advice of Dr. Edwards on filters was practical, 
and that's what we--that's all we can do. We cannot create a 
perfect system overnight. We can't say to folks, well, we don't 
have any perfect system, so you're on your own.
    Ms. Silbergeld. I'm sorry if I left that impression. Please 
excuse me. I can only tell you that my own ethics tell me that 
I cannot tell someone that if they have 300 parts per billion 
in their drinking water, that putting it through a Brita filter 
is acceptable. And I believe when we have national emergencies 
in this country, like hurricanes and floods that affect 
thousands of people, we take the steps necessary to protect 
public health. And it goes against all my training as a public 
health professional to say anything less to the District of 
Columbia. I'm sorry.
    Ms. Norton. Dr. Edwards.
    Mr. Edwards. I will say my own experiments in the lab have 
shown that even up to 1,000 parts per billion lead, if you use 
the simplest filters that are NSF-certified, that you will 
produce water usually below the 15 parts per billion.
    Ms. Norton. Again, we're going to look to see what kind of 
written plan they come up with. It does seem to me, because we 
have to live in the here and now, that the filter notion, 
assuming they are good filters on the one hand, might be 
advisable. I myself, again in this imperfect world, realizing 
that with pregnant women and children--it seems to me that the 
District of Columbia may have an obligation to distribute 
bottled water that is completely lead free, since you're 
telling me that is the case in most bottled water.
    Mr. Chairman, if you'll just let me ask two more questions, 
I'll be through for the day.
    One is, Dr. Edwards, I noticed that you said that the--your 
slides were not taken in private homes, were not from private 
homes or from apartments. I asked the prior panel about 
apartments, because that's where most people in the District of 
Columbia live, not in private homes. And of course the 
testimony of--the WASA testimony, I believe, was that we don't 
think this is a problem in apartments.
    I'd like your advice on that and whether what you saw--what 
you in fact derived was, in fact, in your view, typical for 
apartment homes.
    Mr. Edwards. If you pressed them, I think they would admit 
that they haven't tested new homes and apartments.
    Ms. Norton. And apartments?
    Mr. Edwards. Yeah. I think they have focused on the old 
homes with lead service lines, and they have simply not done 
effective testing of new homes or apartments. And in a letter I 
wrote to the U.S. EPA February 8th, and then another letter on 
February 10th, I warned them that it was wrong to assume this 
problem was confined to older homes. The worst problems with 
brass, the worst case for brass is newer homes.
    And so if you assume that the brass is not a problem, you 
don't sample newer homes. And so I believe if you push the 
issue, you would discover that they haven't done a whole lot of 
sampling in new homes, much less done the type of sampling 
that's necessary to detect the problem, which is to get this 
profile as a function of time.
    And if they have that data I would love to see it. But the 
fact of the matter is the data in Arlington concerns me because 
the worst lead in Arlington was from newer homes and it came 
out after first draw, according to what someone up there said 
today, and that confirms my worst fear about brass.
    Ms. Norton. All right. Finally clear this up for me, if you 
would, the brass, copper, lead issue. Is this just a lead issue 
or does any substance that we've been using tend to corrode and 
produce problems?
    Mr. Edwards. Yes. There is not a perfect plumbing material 
out there. We learned long ago that lead was a good plumbing 
material in terms of how long it lasted but a bad plumbing 
material because it caused serious health problems. It was 
actually used in Roman times. But the fact of the matter is we 
have homes out there, brand-new homes with brass in it, that 
contains up to 8 percent lead. Lead pipes are obviously pure 
lead, there is no lead coming from copper.
    Ms. Norton. Brass and copper therefore don't have the same 
effects on public health, on the health of the individual?
    Mr. Edwards. It's been assumed that the brass is not a 
significant problem and that's why they're not sampling these 
new homes. I am of the opinion that some of these brass devices 
that are out there are causing a serious problem.
    Ms. Norton. If they also have lead in them. But does the 
brass by itself cause a problem? Does copper by itself cause a 
problem?
    Mr. Edwards. Most brass that you buy in the hardware store 
today has lead in it, even, ``leadfree brass.''
    Ms. Norton. What about copper?
    Mr. Edwards. Copper does not have significant amounts of 
lead in it.
    Ms. Norton. Finally, Dr. Silbergeld, would that be your 
view about the risks from brass and copper?
    Ms. Silbergeld. Well, there can be some effects of copper, 
primarily on the aesthetic qualities of water but EPA does 
regulate copper concentrations. Brass has been shown, many 
types of brass and many fittings, to in fact leach lead into a 
system. So it's clearly a source of lead.
    The other point I would like to note is the continued use 
or the continued availability of lead solders which are used to 
connect all kinds of metal piping. Those were banned by EPA, 
but not very effectively because of the known fact that those 
solders at the joints can come into contact with water.
    Ms. Norton. The chairman and I were discussing what may be 
necessary, the science itself seems to be insufficient to yield 
protection, the kind of protection that the public has a right 
to expect. One of the things we're discussing is whether or not 
we should go to a VA-HUD and try to get some significant 
research done here. In your view has the research been ongoing 
and done? Is anybody doing the basic scientific research to get 
at some of these problems you say exist even in the best of 
circumstances?
    Mr. Edwards. I've been doing the research, unfunded, 
sometimes in my own house, for the last several years. I've 
pleaded with the EPA and other agencies to provide funding so 
that we can get answers to the questions that consumers have. 
And the reality is this is an area that has been ignored. I'll 
tell you why: It's a problem no one wants. No one wants the 
responsibility for what happens in people's homes. The 
utilities have traditionally said, ``our responsibility ends at 
the property line.'' The EPA has quite frankly loathed to cross 
that line as well. And while I support the efforts that are 
being made to get EPA to study water infrastructure in this 
country, all of that money is directed at the mains. No one is 
talking about funding research or helping the consumers with 
their water infrastructure, no one is.
    Ms. Norton. Dr. Silbergeld.
    Ms. Silbergeld. I'd like to respond to your question in a 
different context. I think that one of the lessons from this 
event is that we have a tendency to look at water problems one 
at a time. So at one point in time we're concerned about lead 
levels in water and rules are promulgated that have impacts on 
the quality and nature of water, etc., to deal with that 
problem. Then we have a tremendous problem with pathogens in 
that water and we promulgate additional rules that have impacts 
on the quality of water and the manner in which we handle it. 
Then we have some concerns about disinfection byproducts and 
those elicit still other assessments and rules and regulations. 
All of these concerns are valid and important, but the problem 
is there is no ethos or perhaps directive that is clear and 
compelling under the Safe Drinking Water Act or elsewhere to 
compel a holistic assessment of these problems. Because what we 
want is safe and healthful drinking water. And therefore we 
think we are optimizing a solution for one problem when it 
comes to the surface and we neglect the impacts on other 
problems to say nothing of the impacts on the infrastructure 
itself. So I would urge reconsideration of EPA's drinking water 
research program at least insofar as it relates to health to 
ensure that it takes a holistic approach.
    Ms. Norton. One wonders whether or not the research should 
be done outside of EPA. Mr. Chairman, I think we should look at 
whether the CDC, NIH, I don't know who should be doing this 
complicated research involving many different substances which 
may interact one another. Thank you, Mr. Chairman.
    Chairman Tom Davis. Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman. Maybe the National 
Science Foundation, the Institute of Medicine, something. But 
our Public Health Director in Arlington has been asking, 
actually wondering out loud, ``I know that 400 parts per 
billion is basically toxic but is 200, is 100?'' 15 probably 
isn't but why did EPA choose that as the actionable level? We 
asked that and we really didn't get a conclusive answer. 
Apparently--Dr. Silbergeld, go ahead and respond. That was 
going to be an introduction to my question but please respond.
    Ms. Silbergeld. I was actually on the Science Advisory 
Committee at the time in which the recommendations, health 
based recommendations, were drafted that EPA would then utilize 
in devising its regulations. Our health-based regulation, our 
health-based recommendation for lead in drinking water was 
zero. The 15 parts per billion is therefore entirely a 
feasibility estimation and evaluation. And it was driven by a 
number of concerns, many of which are important that Delegate 
Norton raised which have to do with real world solutions to 
real world problems. I don't want to minimize them. But I do 
want to state very clearly that number was not based upon a 
health judgment. When pushed we suggested that perhaps one 
could go as high as 7.5 parts per billion in drinking water and 
still remain in an area of exposure that we at that time as 
health scientists felt comfortable with.
    With respect to your questions about numbers, I've tried to 
provide you some numbers in my testimony based on the medical 
literature, which I have referenced, which will indicate that 
drinking concentrations as low as 30 to 50 are associated in 
studies with significant increases in blood lead levels that 
are sufficient to cause concern, certainly for pregnant women, 
for the fetus and the very young infant, probably also for 
hypertension in adults. So, yes, there is a considerable body 
of information.
    If you would like me to amplify upon that, I will do it for 
you in terms of calibrating numbers that are reported on the 
basis of analysis and expected areas of health concerning.
    Mr. Moran. You know I don't imagine you buildup an immunity 
to lead in your system.
    Ms. Silbergeld. No, unfortunately not. King Mithridates 
tried the idea of taking metals in small amounts.
    Mr. Moran. Gold, I think.
    Ms. Silbergeld. He tried arsenic.
    Mr. Moran. The chairman suggested it gave him a magnetic 
personality but didn't extend his life. Our major concern now 
is for children because they're most vulnerable. I would assume 
the first thing we want to tell parents of infants is don't mix 
the baby formula with the tap water, particularly if you have--
it hasn't been tested and you don't know for sure that it might 
not be contaminated with high levels of lead.
    When you move beyond the home you go immediately to the 
schools. They have water faucets generally. That's how they 
normally get their water. Now, it doesn't give us any comfort 
even if it has been running for a while that is going to be any 
less potentially toxic to them. Did you--I don't know, are most 
water faucets of--are they--is it mostly copper piping in 
schools? Would you assume that? Is that a reasonable 
assumption?
    Mr. Edwards. Yeah, most water faucets in schools themselves 
are safe. The problem that I foresee is downstream at some 
point you have brass. And at some point water contacting that 
brass is going to come to the water faucet. And whether that's 
significant or not we can't say because we don't have the data.
    Mr. Moran. Now, we think that this has been going on for 
about 3 years. So there would be some cumulative effect I 
guess. Does the body accumulate lead in its system? Some metals 
you would normally wash out but others tend to be retained 
within the system. What about lead?
    Ms. Silbergeld. Lead is accumulated in the body but, more 
importantly, the effects of continued exposure are cumulative. 
So that both the exposure you have at any one point in time is 
of concern. But continued exposures are of even greater 
concern.
    Mr. Moran. So if we had caught this, in other words, in the 
first 6 months and had been able to ameliorate it or change the 
corrosive nature of the decontaminants we were putting in, the 
chloramine, then 6 months wouldn't have been a problem for the 
most part unless it was an extraordinarily high level in some 
individual homes, is that accurate?
    Ms. Silbergeld. We would certainly have made an important 
and positive difference. I cite a study that was conducted in 
the western part of England in which interventions were made 
just as you describe to deal with water chemistry problems, and 
there by lowering drinking water lead they saw a lowering of 
blood lead levels in the population drinking that water.
    Mr. Moran. Now, since this has been going on for 3 years 
would you recommend that we do a very extensive, perhaps 
comprehensive testing of the blood levels in our children or 
what do we do now? What do we do from a public health 
perspective? Does anybody want to respond to that? What would 
you recommend?
    Mr. Edwards. Well, from an engineering perspective my main 
concern is to stop the damage now, stop further damages.
    Mr. Moran. You think changing from chloramine and putting 
in phosphates or something would stop the damage?
    Mr. Edwards. Well, I am focused more on the short term, 
here and now issue. First off that's why I spend so much time 
trying to get the flushing advice changed from something that 
was wrong to something that makes a little sense.
    Mr. Moran. So you want them to flush for 5 minutes.
    Mr. Edwards. If they're going to drink water they have to 
flush it to the point that lead is reduced to lead levels--some 
of D.C.'s own WASA's levels shows 10 minutes is necessary.
    Mr. Moran. 10 minutes. I don't think that's a practical 
solution.
    Mr. Edwards. So then you have the filters. Let me point out 
two other things that concern me in the here and now. This 
partial lateral replacement program, is it helpful or not? And 
if it's not helpful, it's harmful. We better stop it.
    Mr. Moran. Could be harmful because of what--the new 
soldering or whatever?
    Mr. Edwards. Because of the fact that you're replacing part 
of an old lead pipe with a brand new copper pipe. Our research 
at Virginia Tech has shown that in essence what you are doing 
is you are making a strong battery there. The brand new copper 
drives corrosion of the old lead. And it's very likely that 
replacing part of the lead service line is going to increase 
lead levels, not make them better. Now, I wish EPA could tell 
you they have data showing that their partial lead replacement 
program is actually having a helpful effect. Quite frankly I 
doubt that they have that data. The data I've seen has scared 
me. The two worst levels you saw in the Post the other day, 
40,000 parts per billion, 20,000 parts per billion, these were 
after a partial lead replacement occurred. So I'm just saying 
we can spend $351 million to replace all of WASA's lead service 
laterals and leave this problem worse than it was. And let's 
get data to make sure that what we're doing with that money is 
beneficial, because, quite frankly, I think it could be making 
things worse.
    And the other point I would make is do we know that this is 
not a problem in new homes? Do we know that this is not a 
problem in apartments? Those folks have not been warned yet. So 
yes, we need to proceed on all fronts but I'm sitting here 
saying we have to stop the damage. Stop the damage that's 
occurring now.
    Mr. Moran. I understand. Is this serious enough that we 
need to do public health testing of large portions of the 
population? I'm not going to ask any further questions but I'd 
be interested in the answer.
    Ms. Silbergeld. Yes. In response to your question I do 
believe that D.C. should significantly increase their testing 
of young children. I noted that, as published in the CDC 
reports of last year, in fact the last time that D.C. reported 
on its lead screening program, they were only screening 30 
percent of children under 6 years of age to begin with. So the 
very first thing would be to get an effective and comprehensive 
screening of children and focusing on the youngest because 
frequently this testing gets biased toward when the child 
enters elementary school. But it would be extremely important 
to catch children through the baby clinics, through day care 
centers and any other means of--I mean a 30 percent screening 
rate is unacceptable regardless of any specific lead problem. 
But in the situation that you have here, there is an urgent 
need to increase that.
    Mr. Moran. Thank you, Mr. Chairman.
    Chairman Tom Davis. Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman. I agree with Mr. 
Edwards, you're absolutely right. We want no one to spend 
millions of dollars to do a partial fix that either does 
nothing or either makes things worse. That gets back to the 
root cause of the issue in D.C. and potentially elsewhere. I 
want to get back to the issue of the effect of chloramines. 
Because Mr. Olson, as I read your testimony, there are lots of 
cities that have been having problems with lead, not 
necessarily the intensity of the problem here, but you list a 
whole number of cities in your testimony. Is there any 
consensus in the scientific community that the cause of the 
problem in any of those cities was a result of leaching or 
corrosion from the chloramine?
    Mr. Olson. The sad answer to that question is I don't think 
there is any single person that can answer that question. It 
should be EPA that would have an answer to that immediately, 
but there is a huge problem with EPA collecting that 
information. And I agree with you on the lead service line 
issue. I think one thing that hasn't been brought out about the 
lead service lines in the district I attached to my testimony 
articles from the Washington Post in 1893 and 1895 where the 
debate was going on in the District as to whether to widely 
adopt lead service lines. The decision was made by the Federal 
overseers of the District's water supply at that time to 
install its service lines city wide. Now it shouldn't be up to 
the home owner to have to replace that little part of their 
lead service line that the city decided to impose or the 
Federal Government decided to put in there, and thereby if they 
don't replace it, make the problem worse. WASA ought to be 
replacing the entire lead service line.
    Mr. Van Hollen. Mr. Chairman, my green light never went on 
but if that's all right, let me just----
    Chairman Tom Davis. You can take a hint pretty well there.
    Mr. Van Hollen. On the chloramine issue, because we've been 
talking all morning. We had a panel up there and there have 
been--the suggestions in the media are that the chloramine is a 
very possible cause of this. And yet as I understand it, there 
is--in listening to testimony from the Army Corps, there is no 
consensus yet in the scientific community. I am just trying to 
get the facts. So there is a substitute to chloramine that 
addresses the byproduct issue that led to chloramine over 
chlorine. And as an alternative where there is consensus if we 
were to implement today--and I ask that question, Mr. Olson, 
because you have a recommendation in your testimony that talks 
about this other alternative, orthophosphate. On the other 
hand, Dr. Edwards suggests in his testimony that before doing 
that more experimental data is needed. Is there a consensus 
that there's an alternative to chloramine that also addresses 
the disinfection byproduct rule that everyone could agree that 
we would implement today? We don't have to resolve the question 
of whether chloramine is the cause but we know there is an 
alternative that meets all the requirements?
    Mr. Olson. Well, it's a complicated question. With respect 
to--chloramine is added, it is part of the disinfection 
process, it's added to reduce the disinfection byproducts. 
There are alternatives, alternative ways that are not going to 
cause disinfection byproducts to disinfect your water. The 
Corps of Engineers has resisted other alternatives because 
they're more expensive, but they include going to activated 
carbon filtration and ozone or ultraviolet light to disinfect 
then. You could add a residual disinfectant. The byproducts 
would be much lower. Before you do that you would have to look 
at what the impact on corrosion control would be. So it may be 
that the long term solution here is to go to modern treatment, 
as much of Europe has, with those alternative disinfectants and 
activated carbon and perhaps orthophosphate, perhaps something 
else. I think it's really important that what was mentioned by 
Delegate Norton, we need some short-term fix for those that are 
being exposed today. We couldn't agree more. The short-term fix 
is different than the long-term fix. A short-term fix might be 
filters that are NSF certified or whatever, something 
immediately that citizens can use. They have to be maintained. 
We don't hear the discussion from WASA about that. You can't 
install a filter and walk away. They can make matters worse if 
you don't maintain them. It's absolutely critical. It's only a 
short-term fix. Over the long run you have to have water that 
is delivered to every citizen of the District and in the 
country that is safe for any child or any person to drink. 
That's got to be where we're headed. These others are short-
term fixes.
    Mr. Van Hollen. Let me ask, Dr. Edwards, you suggest in 
your testimony I think that you go back, utilities be allowed 
to stick to chlorine. Now as I understand it we went from 
chlorine to chloramines because of the byproduct issue. 
Wouldn't that be a problem if you just went back to chlorine?
    Mr. Edwards. Well, what's happened here is the EPA has 
decided the disinfection byproducts are more important, if you 
will, than the potential adverse consequences on home plumbing 
and lead. WASA I think was doing OK with free chlorine under 
the old disinfection byproducts regulations, but what's 
happening, let me just say this, the new regulations are so 
tight that utilities are having to switch to chloramines 
whether they want to or not in order to meet disinfection 
byproducts requirements. So even though they have protested 
this, some in very strong terms, they have no choice because 
chlorines are a national primary drinking water standard. As 
you have seen, lead only has an action limit which in many 
cases means no action. There is no maximum amount of lead 
allowable in water. There are utilities out there that have 
exceeded the action limit forever, and there is no plan to get 
them below the action limit. So action limit can mean no action 
at all.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much. I have a final 
question for all three of you. Do you think the timeframe that 
EPA has laid out for implementing remedial steps is reasonable? 
Do you think there are interim solutions that could be 
implemented prior to September 1st?
    Mr. Olson. I think their response is wholly inadequate and 
that there needs to be an immediate emergency order issued with 
specific deadlines to move forward with each one of these 
steps. That doesn't mean rushing into things but it means some 
deadlines, because if we don't have enforceable deadlines our 
history in this city with the water supply is things--as soon 
as it drops off the front page of the Washington Post things 
tends to get sloughed off.
    Chairman Tom Davis. OK.
    Ms. Silbergeld. When I went to the EPA water site they 
said, and this is a quote from EPA, ``lead concentrations of 40 
parts per billion or higher poses an imminent and substantial 
endangerment to the health of children and pregnant women.'' 
Well, if imminent and substantial endangerment doesn't mean 
that you use emergency powers, I don't know what does.
    Mr. Edwards. Well, my only concern is what I already 
expressed, and that is the time line they put forth seems 
reasonable but they did not--again stop the damages that are 
occurring as we speak. The partial lead service line 
replacement program, is it beneficial, yes or no? This is an 
answerable question. If it is not beneficial, if it's harmful, 
let's stop it. And also we've got to get at this issue in new 
homes and apartments. These people have not been told anything 
yet. And if there is a problem, they have to be told.
    Chairman Tom Davis. Well, thank you very much.
    Mr. Moran. Just for a real quick question. There is a 
professor at Dartmouth that suggested here that it's 
conceiveable that the problem is not chloramines but it could 
be industrial grade flouride that is being used at the 
aqueduct. Is that possible?
    Mr. Edwards. We have directly tested that hypothesis in the 
lab and proven that flouride as it is dosed at the aqueduct 
does not have any significant effect on lead leaching. I didn't 
bring those results in because the chloramine results are just 
so clear.
    Mr. Moran. Thank you.
    Chairman Tom Davis. Thank you all very much. I want to just 
thank the witnesses for being here. You have added greatly to 
this. I think you have given us some thought on some other 
congressional actions that may take place, particularly on some 
of the studies that have been suggested in regulatory review. 
The committee stands adjourned.
    [Note.--Additional information submitted for the hearing 
record is on file with the committee.]
    [Whereupon, at 1:30 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
